<html>
<title> - MASS GATHERING SECURITY: A LOOK AT THE COORDINATED APPROACH TO SUPER BOWL XLVIII IN NEW JERSEY AND OTHER LARGE-SCALE EVENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 MASS GATHERING SECURITY: A LOOK AT THE COORDINATED APPROACH TO SUPER 
         BOWL XLVIII IN NEW JERSEY AND OTHER LARGE-SCALE EVENTS

=======================================================================


                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                       
                        PREPAREDNESS, RESPONSE,
                        
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2014

                               __________

                           Serial No. 113-73

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
    

                         U.S. GOVERNMENT PRINTING OFFICE 

90-883 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                           


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi,      Yvette D. Clarke, New York
    Vice Chair                       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
            Eric B. Heighberger, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
                   
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications........     3
The Honorable Bill Pascrell, a Representative in Congress From 
  the State of New Jersey........................................     5

                               WITNESSES
                                Panel I

Mr. Andrew McLees, Special Agent in Charge, Federal Coordinating 
  Officer, Immigration and Customs Enforcement, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Edward Cetnar, Deputy Superintendent, Operations, New Jersey 
  State Police:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Louis Koumoutsos, Port Authority Police, Office of the Port 
  Authority Chief of Security, The Port Authority of New York and 
  New Jersey:
  Oral Statement.................................................    13
  Prepared Statement.............................................    16
Mr. John G. Centanni, Fire Chief, Fire Department, City of 
  Newark, New Jersey.............................................    17

                                Panel II

Mr. Dan Grossi, Director, Event Security, National Football 
  League:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Daniel DeLorenzi, Director, Security and Safety Services, 
  Metlife Stadium:
  Oral Statement.................................................    32
  Prepared Statement.............................................    33
Mr. J. Douglas Boles, President, Indianapolis Motor Speedway:
  Oral Statement.................................................    33
  Prepared Statement.............................................    36
Mr. Fred S. Roberts, Director, Department of Homeland Security 
  Center of Excellence, Command Control and Interoperability 
  Center for Advanced Data Analysis, Rutgers University:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41

 
 MASS GATHERING SECURITY: A LOOK AT THE COORDINATED APPROACH TO SUPER 
         BOWL XLVIII IN NEW JERSEY AND OTHER LARGE-SCALE EVENTS

                              ----------                              


                         Monday, June 23, 2014

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                            University Heights, NJ.
    The subcommittee met, pursuant to call, at 10:00 a.m., at 
New Jersey Institute of Technology Auditorium, University 
Heights, Hon. Susan W. Brooks [Chairwoman of the subcommittee] 
presiding.
    Present: Representatives Brooks and Payne.
    Also present: Representative Pascrell.
    Mrs. Brooks. The Committee on Homeland Security 
Subcommittee on Emergency Preparedness, Response, and 
Communications will now come to order.
    The subcommittee is meeting today to examine mass gathering 
security.
    First I would like to thank everybody, particularly Dr. 
Bloom and his staff and everyone at NJIT, for working with our 
staff in setting up this outstanding field hearing location. I 
know it takes a lot of work and effort, and it is wonderful to 
be on your campus. Prior to coming to Congress, I also was in 
higher education, and it is just wonderful to see such a 
distinguished campus and a distinguished university and to 
learn about your fine university.
    I also want to thank my Ranking Member, Congressman Payne, 
for suggesting after the Super Bowl that was hosted here that 
we convene this hearing, and it was wonderful to be in your 
home town. Arrived last evening, saw a beautiful military park 
and watched U.S. tie Portugal, and had a lovely evening last 
night, with the exception of that tie at the very end. But I do 
appreciate everyone for coming today and participating in this 
important field hearing, as well as Congressman Pascrell. We 
are so pleased, representing New Jersey's 9th District, for you 
taking your time away from your district to be a part of this.
    He has been a leader in homeland security and issues 
involving our National security, so we are very pleased to have 
you here today.
    This is an official Congressional hearing as opposed to a 
town hall meeting, and so there are some House rules. We need 
to make sure that our audience--and we are so pleased today to 
have so many people participate--that we abide by certain rules 
of the Committee on Homeland Security and of the House. I 
kindly wish to remind our guests today that demonstrations from 
the audience, which include even applause or any verbal 
outbursts, as well as any signs or placards, are a violation of 
rules of the House. So you may really like what you hear, but 
this is a formal hearing, much like in a courtroom. So it is 
important that we respect the decorum and the rules of the 
House.
    So now I will recognize myself for an opening statement.
    As the world looks on, millions gather in Brazil to watch 
the World Cup, and the subcommittee is meeting today, I think 
in a very timely way, to examine the security considerations 
necessary for mass gatherings.
    On February 2, 2014, Super Bowl XLVIII took place less than 
10 miles from where we are sitting today. That event, which was 
attended by more than 80,000 people and watched around the 
world by more than 100 million people, is just one of the many 
large sporting events and gatherings that take place around the 
country each and every year.
    My home State of Indiana, and Indianapolis in particular, 
are very accustomed to hosting large events as well. Year after 
year, we welcome hundreds of thousands of visitors who attend 
conventions, sporting events, festivals, and other mass 
gatherings. Events such as the Indianapolis 500, Big 10 
Championship games, all with hundreds of thousands of attendees 
and athletes, occur annually. Additionally, my home city of 
Indianapolis has hosted multiple NCAA Final Four Championships, 
and in 2012 we were the proud sponsors and proud to host Super 
Bowl XLVI.
    During the events leading up to Super Bowl XLVI, 
Indianapolis catered to nearly 1.1 million visitors in Super 
Bowl Village. We also host the largest capacity sports venue in 
the world, the Indianapolis Motor Speedway. This venue has a 
seating capacity--and think about this--of more than 250,000 
spectators at any one time. It is the largest single event, 
spectator event in the country, and it is held every Memorial 
Day weekend, and we regularly have race day attendance of over 
300,000 spectators.
    But to be successful, all of these events, including Super 
Bowl XLVI, each of these events take years of planning and 
coordination between officials at all levels of government with 
their private-sector partners. Because of the nature of these 
events, we know that a significant amount of time and money 
must be spent on security and planning for every eventuality.
    Unfortunately, in 2011, in my home State of Indiana, we 
experienced a tragedy at the 2011 Indiana State Fair, where a 
micro-burst, or like a mini-tornado, caused a stage to collapse 
at a significant large concert, resulting in the tragic loss of 
7 lives and required an incredible significant emergency 
response. Sadly, twice over the last year we were again 
reminded of what is at stake at events of this magnitude. On 
Monday, April 15, 2013, at roughly 2:50 in the afternoon, two 
explosive devices detonated near the finish line of the Boston 
Marathon. The terrorist attack there resulted in 3 deaths and 
approximately 260 injuries. The IEDs used in this attack were 
made from pressure cookers, toy car parts, and gunpowder taken 
from fireworks. Although a tragic event, the response in the 
aftermath of that bombing proved that the coordination and 
planning that took place prior to that event was a huge 
success.
    Additionally, just a few days before the Super Bowl here, a 
suspicious powder was mailed to several locations in New Jersey 
and New York, including hotels near the Super Bowl site. 
Thankfully, those substances were non-toxic, but the situation 
served as a stark reminder of the threats we face and the 
importance of planning, training, and exercises prior to these 
mass gatherings.
    One of the keys to success is thorough planning and 
coordination. That includes at all levels--Federal, State, 
local, and private sector. It involves intelligence personnel, 
first responders, security experts, and dozens of other players 
who have a part to play.
    In preparation for Super Bowl XLVIII, the Department of 
Homeland Security took the lead in coordinating Federal efforts 
to assist the New Jersey State Police in security operations at 
MetLife Stadium and the surrounding areas, directing over 13 
Federal offices and agencies in a massive interagency 
partnership. This partnership included the FBI, Department of 
Health and Human Services, FDA, and DOD, among others, all 
essential partners.
    I am pleased today that we are joined by key stakeholders 
and the key leaders who planned those efforts. Each of our 
witnesses played a vital role in ensuring the safety and 
security of the public when they attend mass gatherings. I look 
forward to hearing their perspectives on their successes and 
challenges in planning not only for the Super Bowl but also for 
the Indianapolis 500, and the best practices that you have used 
and how we share those.
    At this time, I would like to yield to the distinguished 
gentleman from New Jersey, Ranking Member of the subcommittee, 
Mr. Payne, for his opening statement.
    Mr. Payne. Thank you, Madam Chairwoman.
    It is a real honor and a privilege to be able to host this 
site visit and have such a distinguished panel before us, and 
the second one as well, to discuss these important issues on 
mass gatherings.
    So I am happy that the Subcommittee on Emergency 
Preparedness, Response, and Communications has the opportunity 
to come to the 10th Congressional District of New Jersey to 
learn about the unique challenges the State faced in preparing 
for the Super Bowl. I think this is a good opportunity to also 
learn about how the Federal, State, and local governments and 
the private sector work together to address the challenges in 
preparing for a major National event.
    Before I begin, I would once again like to thank Chairwoman 
Brooks for holding today's hearing here in New Jersey and 
invite a good friend and a gentleman that was part of the 
original Homeland Security Committee and has passed the baton 
on to me in good stead. The homeland is in good shape, but we 
have to continue to be vigilant. But I would like to thank Mr. 
Pascrell for taking the time to be here and being such a mentor 
for me since I have arrived in Congress.
    States and cities across the United States can learn much 
from the unprecedented preparedness efforts carried out by 
first responders from Newark to Jersey City to Rutherford and 
across the State.
    I would like to thank Eric Heiberger, Kerry Kinirons, and 
Kate Bonnevecchio from the Majority staff; Tiffany Hoss, Maura 
Bergen, and Ashely Delgado from the Minority staff; and Natalie 
Nixon and Debbie Jordan, committee clerks, for making today's 
panel possible.
    Finally, I would like to thank the New Jersey Institute of 
Technology for hosting this hearing in such a beautiful space. 
NJIT is the home of the Homeland Security Technology System 
Center and the Homeland Security and Emergency Management 
Program. To Mr. Bloom, we couldn't have picked a more wonderful 
site. I feel at home. I have spent a lot of time in this room, 
so the familiarity helps to have a conducive environment to 
hold this.
    These impressive programs make important contributions to 
our ability to identify and address vulnerabilities to National 
and State security and the development of well-trained, highly-
skilled emergency management personnel. Before 9/11, the focus 
of security professionals at our Nation's sporting arenas and 
other venues for mass gatherings focused primarily on crowd 
containment and firearm entry prevention. After 9/11, these 
spaces with significant crowd capacity and media presence 
became prime targets for terrorist activity. Preventing, 
preparing for, and responding to a terrorist attack or other 
disaster at a sporting event requires close coordination 
between Federal, State, and local authorities.
    Venue owners, sporting associations, and event promoters 
have worked together with Federal, State, and local law 
enforcement and emergency managers to develop, implement, and 
exercise plans to counter the evolving threats posed.
    The National Football League has the highest game 
attendance of any domestic professional sports league in the 
world, drawing over 68,400 spectators per game for its most 
recently completed season in 2013. Its largest widely-attended 
event is the Super Bowl, which had an attendance of more than 
82,000 spectators at MetLife Stadium on February 2, 2014. It is 
a testament to the coordinated efforts that such a massive 
event occurred without incident.
    The success of the February 2, 2014 Super Bowl is a credit 
to over a decade's worth of building preparedness and response 
capabilities at the local and State level with Homeland 
Security grant investments, and in a year-and-a-half of 
coordination, planning exercises, Federal, State, and local law 
enforcement and first responders, alongside the private sector.
    In November 2013, I led a New Jersey delegation briefing to 
learn about the Federal security preparations. Two months 
later, I participated in a site visit at MetLife Stadium, at 
which time Lieutenant Colonel Cetnar described that State 
Police coordinated security efforts with entities ranging from 
the Federal Government to the Port Authority of New York and 
New Jersey to local governments throughout the region. At each 
of the briefings, I was impressed by the degree of planning and 
coordination across all levels of the government and 
jurisdictions.
    By the time the Super Bowl arrived, I was very confident in 
the preparations that had taken place, and I commend the 
Federal, the State, and the local enforcement on their success.
    I would also like to congratulate the NFL and MetLife 
Stadium on their work to enhance security efforts prior to the 
Super Bowl. I am pleased that in addition to learning about 
advances in the mass gathering security here in New Jersey, we 
will have an opportunity to learn about the security efforts at 
the Indianapolis Motor Speedway. These opportunities to share 
best practices and lessons learned are invaluable.
    Finally, as we look to the future of mass gathering 
security, I would be interested to learn from the witnesses, 
particularly Dr. Roberts, about the type of threats we will 
face in the future and how the Federal Government can help 
address them.
    Again, I thank Chairwoman Brooks for holding this hearing, 
and Congressman Pascrell for participating. I appreciate her 
partnership and willingness to work together with me on 
important homeland security priorities, including mass 
gatherings security. I look forward to the testimony from our 
talented panels, and I yield back the balance of my time.
    Mrs. Brooks. At this time, the Chairwoman now recognizes 
Congressman Pascrell from New Jersey's 9th District for a few 
opening remarks.
    Mr. Pascrell. Chairwoman Brooks, thank you for inviting me. 
I really appreciate that; and, of course, my buddy here, Donald 
Payne. It is good to be back on the homeland. It was a 
bipartisan effort that started us after 9/11, and with the 
deepest respect for the oath that we take, that is the first 
thing that we pledge, to support and defend the Nation from 
outside as well as inside. So we are talking about terrorists 
from outside and inside this Nation.
    Dr. Bloom, this great institution, we worked together on 
many projects, including the Smart Gun, and thank you for never 
being afraid of reasonable gun violence legislation. I really 
do salute you for that.
    As co-chairman of Public Safety Advisory Committee in the 
Congress, this is in my bone marrow. Preparing and coordinating 
capabilities whenever there is a mass gathering, a large 
gathering, is an awesome task, and we really need to salute law 
enforcement on all levels who understand coordination. On 9/11, 
we had very little coordination. I mean, we mouthed 
coordination, but it did not exist. One of the reasons for the 
devastation on 9/11 is because one group didn't speak to 
another group.
    That has changed--not 100 percent, but it has changed for 
the better. So al-Qaeda's manual for jihad proposed football 
stadiums in that manual as a possible terrorist attack site, 
and the FBI issued an alert in 2002 warning that people with 
links to terrorist groups were downloading those stadium 
images. Thanks to the FBI for a lot that has advanced over the 
past 13 years.
    Now, the Supporting Anti-Terrorism by Fostering Effective 
Technologies, the SAFETY Act, was enacted in the Homeland 
Security Act of 2002. The goal of promoting development of 
anti-terrorism technologies by providing civil liability 
protections when certified technologies are deployed to protect 
against terrorism are defeated by an act of terrorism.
    So this is an awesome task. I want to thank the committee. 
As Bill Bradley used to say, another Jersey guy, Bill Bradley 
would always watch the person without the ball. That is what 
made him a great basketball player. He understood his role.
    I followed your career, Congresswoman Brooks. You come from 
a great part of the country, and you are doing a great job, and 
I am here to do whatever I can to help you and Don Payne do 
their jobs. God bless you, and thank you for coming to Jersey.
    Mrs. Brooks. Thank you very much. I must say that I have 
very much appreciated the bipartisan nature in which Homeland 
Security as a committee of the whole and our subcommittee in 
particular have worked together.
    Mr. Pascrell. That is right, very rare.
    Mrs. Brooks. We pledge to continue to do that. It is so 
important. Citizens expect it, and particularly our law 
enforcement and first responders expect it. So thank you for 
your leadership.
    We are pleased to have two panels of very distinguished 
witnesses before us today on this important topic. Our first 
panel is before us, and Congressman Payne will now introduce 
and give brief introductions of our first panel.
    Mr. Payne. Thank you, Madam Chairwoman.
    With us today we have Andrew McLees, and he serves as 
special agent in charge for immigration and customs enforcement 
in Newark's field office, a position he has held since August 
2011. In November 2012, he was appointed by the Secretary of 
Homeland Security to serve as the Federal coordinator for Super 
Bowl XLVIII. Special Agent McLees has held a number of 
positions with ICE, including chief of staff at ICE 
headquarters and as the deputy special agent in charge in 
Philadelphia's office. He began his law enforcement career in 
1989 with the United States Customs Service.
    Welcome, sir.
    Edward Cetnar serves as the deputy superintendent of the 
New Jersey State Police and was appointed as the incident 
commander and principal security planner for Super Bowl XLVIII. 
Lieutenant Colonel Cetnar joined the New Jersey State Police in 
1987. He also is an adjunct professor at Seton Hall University, 
teaching courses in Human Resources and Education.
    Welcome. Go Hall.
    Louis Koumoutsos serves as chief of the Port Authority 
Police Department, a position to which he was appointed in May 
2013. He is a 21-year veteran of the Department and was 
instrumental in the response to and recovery from both the 
September 11 attacks on the World Trade Center and Hurricane 
Sandy.
    Welcome, sir.
    Chief John Centanni is the fire chief for the city of 
Newark, a position he has held since 2010. He has previously 
served as the chief of staff to the fire director. Chief 
Centanni joined the Newark Fire Department in 1986.
    Welcome.
    Mrs. Brooks. I want to thank our witnesses for also 
providing full written statements, and they will appear in the 
record, so I want to thank you for your time with respect to 
those statements.
    I just want to let you know, and for those in the audience 
just a reminder, that the green, yellow, and red light--it 
turns green during your testimony, it will become yellow when 
you have a minute left to speak, and red. If you could just 
wrap up your comments shortly after the red light goes off. 
Also, this mic system, you need to push it in order to speak 
and to push the button again when you are finished speaking. So 
I just want to remind you of those.
    The Chairwoman now will recognize Special Agent McLees for 
5 minutes of testimony.

 STATEMENT OF ANDREW MC LEES, SPECIAL AGENT IN CHARGE, FEDERAL 
COORDINATING OFFICER, IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. McLees. Chairwoman Brooks, Ranking Member Payne, and 
Congressman Pascrell, thank you for the opportunity to appear 
before you today to discuss DHS' role in supporting 
comprehensive efforts to safely secure mass gatherings and 
large-scale public events in the United States.
    Specifically, I would like to discuss my role as the 
Federal coordinator assigned to be the primary Federal point of 
contact for facilitating planning efforts in support of the New 
Jersey State Police for Super Bowl XLVIII.
    In November 2012, then-Secretary Napolitano appointed me to 
serve as the Federal coordinator for the Super Bowl XLVIII, and 
over the course of the following 18 months DHS played an 
instrumental role in preparing for and supporting the security 
efforts for the Super Bowl. As part of the special security 
events annual planning process, DHS requested that all State 
and local governments submit information related to any special 
events taking place within their jurisdiction. Using an 
algorithm that incorporates information provided by these 
jurisdictions such as attendance, facility type, and iconic 
value, among other measures, the event is designated on a scale 
known as a Special Event Assessment Rating, or SEAR, 1 through 
5.
    The Super Bowl is annually a SEAR 1. Another recent example 
of a SEAR designation was the Indianapolis 500, which was 
designated as a SEAR 2. This designation is what triggers the 
appointment of the Federal Coordination Team which is drawn 
from the local jurisdiction of the event to capitalize on the 
existing relationships in that community.
    The Federal Coordination Team was responsible for 
coordinating and the integrated planning for and use of Federal 
resources from over 30 agencies across the spectrum of 
prevention, protection, response, and recovery. Members of the 
team were pre-staged to perform their roles as advisors to the 
local incident command at key command and control centers prior 
to and during the event, including the State Police's Public 
Safety Compound, the FBI Intelligence Operations Center, as 
well as MetLife Stadium.
    The Federal Coordination Team was directly supported by DHS 
Operations and Special Events Program based in Washington. This 
group is responsible for the risk assessment process, the 
Federal interagency information sharing, and support resourcing 
for special events. They also provide the conduit to the 
Secretary of DHS and the Federal interagency.
    The needs of the State Police in addressing this mass 
gathering were identified in one of two ways. One method was in 
walking the ground and working alongside the State Police. This 
enabled the Federal Coordination Team to better understand and 
identify vulnerabilities facing the event and make known the 
spectrum of Federal resources available. The other method was 
derived during the pre-incident planning process and resulted 
in direct requests from the State Police.
    One example of a direct request I received from the State 
Police was to facilitate the establishment of a temporary 
flight restriction zone near MetLife Stadium on Super Bowl 
Sunday. I was able to accomplish this by coordinating with the 
FAA, who controls the air space; the Department of Defense, who 
are responsible for air defense; and Customs and Border 
Protection's Air and Marine Operations, who provided the assets 
to conduct low and slow air intercept operations.
    In addition to CBP's efforts, the TSA provided assets to 
ensure the overall safety of fans by staffing the event from a 
rail transit perspective, as well as assigning additional 
personnel to assist with the mass overflow of travelers the day 
after the game through local airports. The Secret Service leant 
their cyber expertise in an area that is critical and continues 
to evolve, and these are just a few examples of how DHS 
components work closely with and in support of the State Police 
to secure the event and related venues.
    In addition to our support for security operations, we also 
played a significant role in preserving and protecting 
commercial aspects of the Super Bowl. ICE's efforts were 
primarily related to counterfeit NFL merchandising game 
tickets. In September 2013, ICE initiated Operation Team 
Player, a multi-agency initiative designed to combat 
intellectual property rights violations. As a result of our 
National enforcement operations, we seized over 350,000 items 
valued at $37 million.
    Both DHS and ICE remain committed to supporting our 
Federal, State, local, and private-sector partners to ensure 
that all future mass gatherings and large-scale public events 
held in the United States are safe. It is our mission to 
provide security, consequence management, and law enforcement 
resources so that these events are incident-free and 
successful. We will build upon the success of our involvement 
with providing resources and support for the prior Super Bowls, 
the recent Indianapolis 500, and other previously-held events, 
and will continue to impart our lessons learned for the safety 
and security of all future mass gatherings.
    Finally, I would like to recognize and publicly thank the 
New Jersey State Police Incident Command, Major Kevin Fowler, 
Major Bob Yaiser, and, of course, Lieutenant Colonel Cetnar. I 
was proud to work alongside these dedicated professionals who 
provided superior leadership, expertise, and camaraderie that 
resulted in a well-organized and incident-free Super Bowl.
    Thank you again for inviting me to appear before you today 
and for your continued support of DHS, ICE, and all the 
agencies that contributed to protecting the Super Bowl. I would 
be pleased to answer any questions. Thank you.
    [The prepared statement of Mr. McLees follows:]
                  Prepared Statement of Andrew McLees
                             June 23, 2014
                              introduction
    Chairwoman Brooks, Ranking Member Payne, and distinguished Members 
of the subcommittee: As the special agent in charge for Homeland 
Security Investigations (HSI), U.S. Immigration and Customs Enforcement 
(ICE) in Newark, I would like to thank you for inviting me to share 
with you information about the role of the Department of Homeland 
Security (DHS) in supporting the comprehensive efforts to safely secure 
mass gatherings and large-scale public events in the United States. 
Specifically, I would like to discuss my role as the Federal 
coordinator assigned to be the primary Federal point of contact for 
facilitating coordinated Federal planning efforts for Super Bowl 
XLVIII.
    As part of this important effort, I was honored to work alongside 
the gentlemen sitting with me today, Lt. Colonial Ed Cetnar of the New 
Jersey State Police (NJSP) and Chief Louis Koumoutsos of the Port 
Authority Police Department, in our collective mission to ensure that 
the Super Bowl was free from any significant security incident before, 
during, and after the game.
          dhs's role in security efforts for super bowl xlviii
    In November 2012, then-Secretary Napolitano appointed me to serve 
as the Federal coordinator for Super Bowl XVLIII, which was played on 
February 2, 2014, at MetLife Stadium in New Jersey. Over the course of 
the following 18 months, DHS played an instrumental role in preparing 
for and supporting the security efforts for the Super Bowl. As the 
Federal coordinator, I worked in partnership with two Deputy Federal 
coordinators: James Mottola, special agent in charge for the U.S. 
Secret Service (USSS) in Newark, and Frank Westfall, regional director 
for the Office of Infrastructure Protection within DHS's National 
Protection and Programs Directorate (NPPD). I served as the Secretary's 
representative and primary Federal point of contact for facilitating 
coordinated Federal planning in support of the event's incident command 
and the New Jersey State Police (NJSP).
    As part of the Special Security Events yearly planning process, DHS 
requests that all State and local governments submit information 
related to any special events taking place within their jurisdiction 
for the following year. Using an algorithm that incorporates 
information provided by the State and local jurisdictions, such as 
attendance, facility type, and iconic value among other measures, the 
event is designated on a scale known as the Special Event Assessment 
Rating (SEAR) 1 through 5. A National Special Security Event (NSSE) is 
not evaluated and designated in the same manner. NSSEs are assessed 
based upon a separate data submission provided by the lead State and/or 
local agency on behalf of the Governor of the State in which the event 
is held. The Super Bowl is annually designated as a SEAR 1, which is 
the highest rating other than that of an NSSE.
    The Super Bowl XVLIII Federal Coordination Team was responsible for 
coordinating the integrated planning for and use of Federal resources 
from over 30 Federal agencies across the spectrum of prevention, 
protection, response, and recovery. Members of the Federal Coordination 
Team were pre-staged to perform their role as advisors to local 
incident command at key command and control centers prior to and during 
the event, including the NJSP Public Safety Compound, the NJSP Venue 
Incident Command Post, the Federal Bureau of Investigation (FBI) 
Intelligence Operations Center (IOC), as well as the stadium. In the 
event of an incident, my role as the Federal coordinator would have 
been to serve in an advisory capacity to the NJSP.
    The Federal Coordination Team was directly supported by the DHS 
Office of Operations Coordination and Planning, Special Events Program, 
based in Washington, DC. This group is responsible for the risk 
assessment process, Federal interagency information sharing, and 
support resourcing for special events. In addition, they also provide 
the structure and subject-matter expertise to assure Federal 
coordinator consistency and provide the conduit to the Secretary, DHS, 
and the Federal interagency.
   federal coordination and operational efforts supporting the event
    Federal Coordination Team.--During the planning process, the 
Federal Coordination Team was embedded with the NJSP and acted in 
consultation with the NJSP Incident Command. It was our responsibility 
to ensure that the appropriate Federal support was provided in response 
to requests for assistance from Federal, State, and local partners. It 
is important to underscore the mechanisms by which the Federal 
Coordination Team coordinated the use of DHS and other Federal assets 
because it highlights the best practice of a diverse team with strong, 
local relationships. The responsiveness of DHS and the team was an 
important message we wanted our security partners to have throughout 
the process.
    The needs of the NJSP in addressing this mass gathering were 
identified in one of two ways. One method was in ``walking the ground'' 
and working alongside our NJSP partners. This enabled the Federal 
Coordination Team to better understand and identify the vulnerabilities 
facing the event, and make known the spectrum of Federal resources 
available. The other method was derived during the pre-incident 
planning process and resulted in direct NJSP requests for assistance to 
the Federal coordinator.
    One example of a direct request that I received from the NJSP was 
to facilitate the establishment of a temporary flight restriction zone 
in the vicinity of MetLife Stadium on Super Bowl Sunday. I was able to 
accomplish this by coordinating with the Federal Aviation 
Administration (FAA), which controls the airspace; the Department of 
Defense, which is responsible for air defense; and U.S. Customs and 
Border Protection (CBP) Air and Marine Operations, which provided 
assets to conduct low and slow air intercept operations, and patrol the 
critical rail link between Secaucus Junction and MetLife Stadium in 
support of New Jersey Transit.
    CBP.--CBP supplied aircraft equipped with video downlink feeds of 
the venues to the Public Safety Compound, the Regional Operations 
Intelligence Center, and the Intelligence Operations Center, all 
coordinated with the NJSP Aviation Unit. This allowed public safety 
officials appropriate situational awareness in order to address crowd 
control, traffic, and other incidents. Diversion airports were 
identified outside the restricted zone to divert violators of the 
flight restriction where they would be met by FBI Special Agents and 
Transportation Security Administration (TSA) Federal Air Marshals. At 
the request of the NJSP, I coordinated with CBP's Office of Field 
Operations to initiate Vehicle and Cargo Inspection System (VACIS) 
operations to screen cargo and vehicles destined for secure Super Bowl 
venues through non-intrusive inspection technology. In addition, CBP 
provided support to FBI tactical teams.
    USCG.--Existing professional relationships and knowledge of 
available resources allowed for coordination informally. For instance, 
there was a request to establish a maritime security environment to 
secure the waterways adjacent to various Super Bowl venues. This was 
accomplished between the NJSP Marine Unit and the U.S. Coast Guard, 
which already work side-by-side on a daily basis year-round.
    TSA.--The Transportation Security Administration (TSA) provided 
assets to ensure the overall efficiency and safety of fans by staffing 
the event from a rail transit perspective, as well as assigning 
additional personnel to assist with the mass outflow of travelers the 
day after the game through local airports. TSA's Federal Air Marshals 
assisted in securing the event by assigning marshals to ride the mass 
transit system, performing the same role as they do in the aviation 
environment. TSA also assigned Visible Intermodal Prevention and 
Response (VIPR) teams in critical transfer and origination rail 
stations.
    ICE.--The Federal Government assisted in addressing criminal 
enterprises related to the Super Bowl. There were three key areas that 
Federal law enforcement committed significant resources: Addressing the 
threat to cybersecurity; investigating human trafficking; and the 
protection of intellectual property.
    While my agency worked with the FBI on combating human trafficking 
surrounding the event, our efforts in the criminal enterprise realm 
were primarily related to counterfeit National Football League (NFL) 
merchandise and counterfeit game tickets. In September 2013, ICE 
initiated Operation Team Player, a multi-agency initiative in 
conjunction with other law enforcement agencies and the NFL. This 
operation was designed to combat intellectual property rights 
violations that are typically associated with large-scale sporting 
events. In July 2013, for example, HSI Newark worked in coordination 
with the ICE-led Intellectual Property Rights Center, the NFL and other 
professional and collegiate sports leagues to host training for over 
200 Federal, State, and local officers who also enforce intellectual 
property violations.
    During the operational period leading up to the game, HSI Newark 
led daily enforcement operations targeting the sale of counterfeit NFL 
apparel, merchandise, and Super Bowl tickets. National enforcement 
operations resulted in the seizure of over 350,000 items with an 
estimated retail value of $37 million and 76 arrests. HSI special 
agents also investigated the sale of counterfeit Super Bowl tickets, 
and seized 163 counterfeit tickets valued at approximately $170,000.
    USSS.--In addition to the appointment of Special Agent in Charge 
Mottola as the deputy Federal coordinator for this event, the USSS 
assigned other personnel to provide training and conduct threat 
assessments for all critical infrastructure components connected to the 
event, including MetLife Stadium. They also were assigned to Cyber 
Response Teams before and during the event with the capability to 
address a cyber-related attack on any entity connected to the Super 
Bowl.
    The USSS assigned personnel from the Protective Intelligence and 
Assessment Division who reviewed open-source information that provided 
real-time awareness on public safety matters that could have adversely 
impacted the game. The USSS Uniformed Division officers provided 
magnetometer training to the private security services manning the 
check points at MetLife Stadium. Additionally, the USSS was responsible 
for coordinating the protective advance for former President Clinton, 
who attended the game.
    FEMA.--The Federal Emergency Management Agency (FEMA) was another 
key partner. FEMA personnel were on-site, prepared to coordinate 
Federal resources, in support of State and local response efforts in 
mitigating the consequences of a natural disaster or terrorist attack. 
As part of its responsibilities, FEMA personnel led the planning for 
such a contingency.
    DHS Headquarters.--At the DHS Headquarters level, NPPD supported 
the effort of minimizing risk to critical infrastructure through 
identification, assessment, and monitoring of threats and 
vulnerabilities in the designated geographical areas of responsibility 
in support of the Super Bowl.
    Deputy Federal Coordinator Westfall was the lead field 
representative for NPPD's Office of Infrastructure Protection 
supporting the security planning and other preparedness efforts. He 
facilitated or completed 25 facility security surveys, vulnerability 
assessments, Computer-Based Assessment Tools and Cyber Security 
Resilience Reviews on key event venues and supporting infrastructure, 
including MetLife Stadium, the MetLife Sports Complex, and the Public 
Service Electric & Gas Company (PSE&G) East Rutherford Switching 
Station.
    The DHS Office of Intelligence and Analysis (I&A) deployed 
intelligence personnel who provided analytic support, facilitated 
information exchange, and assisted event leadership in developing and 
prioritizing protective and support measures for Super Bowl pre-event 
and event intelligence, information sharing, and planning. In addition, 
I&A conducted Classified and Unclassified cyber engagements in November 
2013 with the U.S. Attorney for the District of New Jersey, the Federal 
Coordination Team for the Super Bowl, the NJSP Incident Command, and 
the New Jersey Cyber Cell, including the New Jersey Homeland Security 
Advisor, Fusion Center Director, and private-sector partners. These 
engagements enabled Federal, State, local, and private-sector 
stakeholders to improve cybersecurity and increase cyber resilience 
prior to the event. I&A also maintained a secure communication facility 
at the Public Safety Compound during game. Other DHS Headquarters 
elements, including the Office of Science and Technology, the Office of 
Domestic Nuclear Detection, and the Office of Health Affairs provided 
technical support to the event.
    Federal Partners.--Outside of DHS, the FBI, the U.S. Marshals 
Service, the U.S. Department of Energy National Nuclear Security 
Administration, the U.S. Department of Health and Human Services, and 
the U.S. Department of Commerce's National Weather Service all provided 
additional support and specific expertise to our efforts.
                               conclusion
    ICE and the other operating components and Headquarters elements of 
DHS are committed to supporting our Federal, State, local, and private-
sector partners to ensure the safety and security of future mass 
gatherings and large-scale public events held in the United States. We 
will work together to provide security, consequence management, and law 
enforcement resources so that these events are incident-free and 
successful. We will build upon the success of our involvement in 
providing resources in support of prior Super Bowls, the recent 
Indianapolis 500 race, and other previously-held events, and will 
continue to impart our lessons learned for the safety and security of 
all future mass gatherings.
    In addition to Colonel Fuentes of the NJSP and FBI Special Agent in 
Charge Ford here in Newark, I would also like to recognize and thank 
the NJSP Incident Command, Lt. Colonial Ed Cetnar, as well as Major 
Kevin Fowler and Major Bob Yaiser. I was proud to work alongside these 
dedicated law enforcement professionals who provided superior 
leadership, expertise, and camaraderie that resulted in a well-
organized and incident-free Super Bowl.
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS, ICE, and all the agencies that 
contributed to protecting the Super Bowl. I would be pleased to answer 
any questions.

    Mrs. Brooks. Thank you, Special Agent McLees.
    The Chairwoman now recognizes Lieutenant Colonel Cetnar to 
testify for 5 minutes.

STATEMENT OF EDWARD CETNAR, DEPUTY SUPERINTENDENT, OPERATIONS, 
                    NEW JERSEY STATE POLICE

    Lt. Col. Cetnar. Madam Chairwoman, Congressman Payne, 
Congressman Pascrell, let me begin by saying thank you to the 
Committee on Homeland Security and the subcommittee for the 
advocacy and support you have consistently shown to the New 
Jersey State Police in our pursuit for effective management and 
overall preparedness operations in our everyday duties and 
responsibility to protect and serve the citizenry of New Jersey 
from all crimes and all hazards.
    Again, my name is Edward Cetnar, and I serve as a 
lieutenant colonel deputy superintendent to the Operations 
Branch. I am pleased to appear before the subcommittee today to 
highlight some of our key accomplishments of the past year and 
to answer questions you may have in regards to mass gathering 
security using our coordinated approach to Super Bowl XLVIII 
and other large-scale event models.
    In preparation for Super Bowl XLVIII, the New Jersey State 
Police coordinated the activities of over 100 different 
Federal, State, county, and local agencies. This coordination 
included the development and oversight of 28 subcommittee 
working groups. The working groups covered the many disciplines 
required to secure an event of this magnitude.
    The New Jersey State Police executed a plan to secure Super 
Bowl XLVIII using an air, land, and sea concept. This approach 
was the most aggressive security plan ever executed at an NFL 
Super Bowl. Focusing upon all manner of threats and hazards, 
from weather to terrorism, the New Jersey State Police 
developed a security plan encompassing input from the over 100 
agencies that participated as a means to eliminate the threat 
of disruption and terrorist attack.
    A broad spectrum of planning involved matters of tactical 
operations, cyber, intelligence, aviation, bomb detection, and 
emergency management, in addition to many other areas of 
vulnerability. In addition, the New Jersey State Police was 
also responsible for collaborating and coordinating security 
efforts with the State of New York, as well as the city of New 
York.
    As a result of this unprecedented level of collaboration 
with partners from Federal, State, local, and county officials, 
as well as the private sector, more than 80,000 fans in 
attendance and more than 160 million viewers world-wide enjoyed 
America's premier sporting event.
    The New Jersey State Police continues to establish best 
practices and has employed both preparedness and tactical 
operations that demonstrate our ability to prepare and respond 
to any incident or event, as well as any disaster that may 
impact the State of New Jersey.
    I thank you for your attention today and for the 
opportunity to share this testimony with you, and I also would 
be happy to answer any questions.
    [The prepared statement of Lt. Col. Cetnar follows:]
                  Prepared Statement of Edward Cetnar
                             June 23, 2014
    Madam Chairwoman, Congressman Payne, and Members of the 
subcommittee: Let me begin by saying thank you to the Committee on 
Homeland Security and the subcommittee for the advocacy and support you 
have consistently shown the New Jersey State Police in our pursuit for 
effective management and overall preparedness operations in our 
everyday duties and responsibility to protect and serve the citizenry 
of New Jersey from all crimes, and all hazards.
    My name is Edward Cetnar, and I serve as Lieutenant Colonel, Deputy 
Superintendent to the Operations Branch. I am pleased to appear before 
the subcommittee today to highlight some of our key accomplishments of 
the past year and to answer questions you may have in regards to ``Mass 
Gathering Security'' using our coordinated approach to Super Bowl 
XLVIII and other large-scale events as models.
    In preparation for Super Bowl XLVIII, the New Jersey State Police 
coordinated the activities of over 100 different Federal, State, 
county, and local agencies. This coordination included the development 
and oversight of 28 Subcommittee Working Groups. The Working Groups 
covered the many disciplines required to secure an event of this 
magnitude.
    The New Jersey State Police executed a plan to secure Super Bowl 
XLVIII using an air, land, and sea concept. This approach was the most 
aggressive security plan ever executed at an NFL Super Bowl. Focusing 
upon all manner of threats and hazards, from weather to terrorism, the 
New Jersey State Police developed a security plan encompassing input 
from over 100 agencies as a means to eliminate the threat of disruption 
and terrorist attack.
    A broad spectrum of planning involved matters of tactical 
operations, cyber, intelligence, aviation, bomb detection, and 
emergency management, in addition to many other areas of vulnerability. 
In addition, the NJSP was also responsible for collaborating and 
coordinating security efforts with the State of New York, as well as 
New York City.
    As a result of this unprecedented level of collaboration with 
partners from Federal, State, county, and local law enforcement and the 
private sector, more than 80,000 fans in attendance and more than 160 
million viewers world-wide enjoyed America's premier sporting event.
    The New Jersey State Police continues to establish best practices 
and has employed both preparedness and tactical operations that 
demonstrate our ability to prepare and respond to any incident, event, 
or disaster that may impact the State of New Jersey. I thank you for 
your attention today and for the opportunity to share this testimony. I 
would be happy to answer any questions you may have.

    Mrs. Brooks. Thank you, Lieutenant Colonel Cetnar.
    The Chairwoman now recognizes Chief Koumoutsos to testify 
for 5 minutes.

STATEMENT OF LOUIS KOUMOUTSOS, PORT AUTHORITY POLICE, OFFICE OF 
THE PORT AUTHORITY CHIEF OF SECURITY, THE PORT AUTHORITY OF NEW 
                      YORK AND NEW JERSEY

    Chief Koumoutsos. Good morning, Congresswoman Brooks, 
Congressman Payne, and Congressman Pascrell. Thank you for the 
opportunity to testify on behalf of the actions of the Port 
Authority Police relative to the Super Bowl. Good morning.
    At the inception of the Super Bowl award to the New York 
metropolitan area, the National Football League presented the 
calendar of events and regional activities planned within the 
region for the Super Bowl XLVIII operational period. With the 
addition of a Homeland Security Special Event Assessment Rating 
Number 1 event to the metropolitan area, the Port Authority 
Police Department acknowledged the fact that the security and 
operational challenges faced would be substantial to the region 
and the Port Authority in specific.
    Principal law enforcement agencies began partnerships to 
regionalize and coordinate security efforts and operational 
deployment initiatives to achieve an overarching security 
strategy to support the Super Bowl event.
    The New Jersey State Police, the New York City Police 
Department, New Jersey Transit Police Department, the Federal 
Bureau of Investigation, the Port Authority Police Department, 
and other local and Federal partners created numerous 
subcommittees to support the subdivisions of each event 
security component. Law enforcement, private business, public 
utility, transportation facility operations personnel, and 
other public safety components were assembled to support the 
regional Super Bowl security strategy.
    All interagency subcommittees reported progress and 
initiatives to the overarching security committees, which were 
tasked with command and control and the coordination of the 
subgroups. The Port Authority Police provided representation 
for each of the aforementioned interagency subcommittees 
throughout the Super Bowl XLVIII security planning process.
    Examples of some established interagency subcommittees 
included: Aviation subcommittees, tasked with the security 
strategy, operational support, and passenger management at all 
regional major airports; interagency communication 
subcommittees, tasked with the coordination of interoperability 
radio networks to facilitate the missions of the numerous 
security details and escort personnel; dignitary/VIP and escort 
subcommittees, tasked with the interagency coordination of 
dignitaries and VIPs traversing Hudson River crossings and 
inter-State facilities. We also have the explosive device 
response and hazardous material mitigation. They were tasked 
with the interagency coordinated efforts for Special Operations 
Division resources to avoid redundancy of asset deployment, and 
to facilitate the overarching hazardous material mitigation 
footprint of the region.
    In addition to the interagency security subcommittees, the 
Port Authority Police created intra-agency law enforcement, 
facility operations, and security department subcommittees to 
address specific events and impacts to Port Authority 
facilities throughout the Super Bowl operational period.
    Daily manpower deployment strategies were created specific 
to Port Authority facility needs based on sanctioned and 
unsanctioned Super Bowl events. Table-top exercises and 
information-gathering sessions across Port Authority line 
departments were created to facilitate business continuity 
planning in an effort to mitigate operational impacts in the 
event a facility vital to a specific Super Bowl event was 
inoperable due to unforeseen circumstances.
    Upon completion of the planning stages in support of the 
event, the Port Authority Police Department and the Port 
Authority Office of Emergency Management took the lead in 
coordinating information sharing and dissemination across Port 
Authority line departments and facility operations personnel. 
The information gathered during subcommittee participation was 
compiled and correlated for each operational period to assess 
specific facility impact and establish a gauge for logistical 
support needed. Meetings were prompted with key affected 
facility personnel to develop strategies to mitigate security 
concerns, increase police patrol volume, and identify staffing 
issues.
    For example, based on regional events scheduled in support 
of the Super Bowl, PATH operations increased train activity on 
the system to accommodate the anticipated increased volume of 
patrons to the Super Bowl Boulevard event in the Times Square 
area. Weekend schedules were suspended over the Super Bowl 
weekend, and additional personnel were assigned accordingly at 
PATH Station locations. Emergency equipment was pre-staged and 
available for rapid response in the event of an emergency 
within the PATH system.
    The Lincoln Tunnel facility reversed rush hour 
configurations on Super Bowl Sunday to support the travel 
routes of the host committee-sponsored Motor Coach 
transportation vehicles and et cetera. Partnered with the New 
York City Police Department, the Port Authority Police 
Department was strategically deployed along the bus routes to 
support the altered ingress and egress routes created at the 
Lincoln Tunnel Command.
    Prior to the identification of the Super Bowl game 
participants, all major airports developed a detailed security 
deployment strategy to accommodate the perceived passenger 
activities during the Super Bowl operational period. Upon the 
identification of the volume of general aviation activity at 
Teterboro Airport and the participating teams' decision to 
utilize Newark Airport, several operational meetings were held 
to coordinate and facilitate the Port Authority Police and the 
Newark Airport operations community, which resulted in 
comprehensive planning to support the participating teams' 
arrivals and departures.
    Tenant information was solicited inside the New Jersey 
Marine Terminal community to track Class 7 radiological and 
hazardous material shipment activity traversing roadways in 
proximity to Super Bowl events.
    Information sharing was initiated with supporting agencies 
in the Teterboro area via the Transportation Subcommittee to 
meet the challenges that were often faced by the increased VIP 
activity exiting and entering the facility during the 
operational period. Special security provisions were made 
utilizing designated parking areas at Newark Airport for the 
volumes of staged hired vehicles contracted for spectator 
transportation.
    Technological efforts have the following. The Port 
Authority Police Technical Services Division was solicited to 
support the Port Authority Police PAPD throughout the Super 
Bowl operational period. Camera view links were provided from 
the tunnels, bridges, and terminal, and PATH facilities for 
real-time situational awareness inside the PATC Emergency 
Operations Center. Camera views were shared with partner 
agencies at the New Jersey State Police Command Center within 
the American Dream Complex, the New Jersey Department of 
Transportation Operations Center, and the FBI IOC, which was 
located in Newark.
    Early in the interagency coordination process, the 
identification was made for interoperable communication 
networks in the Communication subcommittee meetings. Radio 
interoperability patches across State lines were to support the 
VIP escort mission during the Super Bowl operational period. 
All planned patches were tested at great length prior to 
implementation and utilization. The networks performed 
superbly, and interagency coordination of effort was achieved 
via utilization of the interoperable radio communications 
framework.
    In closing, the security deployment strategy generated in 
support of the Super Bowl event was a major success. I would 
like to thank the regional partners for all their efforts and 
hard work in all phases of planning and operations in support 
of the Super Bowl XLVIII event.
    Thank you.
    [The prepared statement of Chief Koumoutsos follows:]
                 Prepared Statement of Louis Koumoutsos
                             June 23, 2014
    Good morning, at the inception of the Super Bowl Award to the New 
York Metropolitan area, the National Football League presented the 
calendar of events and regional activities planned within the region 
for the Super Bowl 48 Operational Period. With the addition of a 
Homeland Security Special Event Assessment Rating No. 1 event to the 
metropolitan area, The Port Authority Police Department acknowledged 
the fact that the security and operational challenges faced would be 
substantial to the region and the Port Authority in specific.
    Principal Law Enforcement agencies began partnerships to regionally 
coordinate security efforts and operational deployment initiatives to 
achieve an over-arching security strategy to support the Super Bowl 
Event.
    The New Jersey State Police, the New York City Police Department, 
New Jersey Transit Police Department, The Federal Bureau of 
Investigation, the Port Authority Police Department, and other local 
and Federal partners created numerous subcommittees to support the 
subdivisions of each event security component. Law enforcement, private 
business, public utility, transportation facility operations personnel, 
and other public safety components were assembled to support the 
regional Super Bowl Security strategy. All inter-agency subcommittees 
reported progress and initiatives to the over-arching steering 
committees, which were tasked with command and control, and the 
coordination of the sub-groups. The Port Authority Police provided 
representation for each of the aforementioned inter-agency 
subcommittees throughout the Super Bowl XLVIII (48) security planning 
process.
    Examples of established inter-agency subcommittees included:
Aviation Subcommittees
    Tasked with the security strategy, operational support, and 
passenger management at all regional major airports.
Inter-Agency Communication Subcommittees
    Tasked with the coordination of inter-operability radio networks to 
facilitate the missions of the numerous security details and escort 
personnel.
Dignitary/VIP/Escorts Subcommittees
    Tasked with the inter-agency coordination of dignitaries and VIPs 
traversing Hudson River crossings and inter-State facilities.
       explosive device response & hazardous material mitigation
    Tasked with the inter-agency coordinated efforts for Special 
Operations Division resources, to avoid redundancy of asset deployment, 
and the facilitate the over-arching hazardous material mitigation 
footprint of the region.
    In addition to the inter-agency security sub-committees, the Port 
Authority Police created intra-agency law enforcement, facility 
operations, and security department subcommittees to address specific 
events and impacts to Port Authority facilities throughout the Super 
Bowl Operational period.
  <bullet> Daily Manpower deployment strategies were created specific 
        to Port Authority Facility needs based on Sanctioned and 
        Unsanctioned Super Bowl Events.
  <bullet> Table-top exercises and information-gathering sessions 
        across Port Authority Line Departments were created to 
        facilitate business continuity planning, in an effort to 
        mitigate operational impacts in the event a facility vital to a 
        specific Super Bowl event was inoperable due to unforeseen 
        circumstances.
    Upon completion of the planning stages in support of the event, The 
Port Authority Police Department and the Port Authority Office of 
Emergency Management took the lead in coordinating information sharing 
and dissemination across Port Authority line departments and facility 
operations personnel. The information gathered during subcommittee 
participation was compiled and correlated for each operational period 
to assess specific facility impact, and establish a gauge for 
logistical support needed. Meetings were prompted with key affected 
facility personnel to develop strategies to mitigate security concerns, 
increase police patrol volume, and identify staffing issues.
    For example:
    Based on regional events scheduled in support of the Super Bowl, 
PATH operations increased train activity on the system to accommodate 
the anticipated increased volume of patrons to the Super Bowl Boulevard 
Event in the Times Square area. Weekend schedules were suspended over 
the Super Bowl weekend, and additional personnel were assigned 
accordingly at PATH Station locations. Emergency equipment was pre-
staged and available for rapid response in the event of an emergency 
within the PATH system.
    The Lincoln Tunnel facility reversed rush hour configurations on 
Super Bowl Sunday to support the travel routes of the Host Committee 
sponsored Motor Coach transportation vehicles. Partnered with the New 
York City Police Department, the Port Authority Police Department was 
strategically deployed along the bus routes to support the altered 
ingress and egress routes created at the Lincoln Tunnel Command.
    Prior to the identification of the Super Bowl game participants, 
all major airports developed a detailed security deployment strategy to 
accommodate the perceived passenger activities during the Super Bowl 
XLVIII Operational period. Upon the identification of the volume of 
general aviation activity at Teterboro Airport, and the participating 
team's decision to utilize Newark Airport, several operational meeting 
and coordination efforts were facilitated by the Port Authority Police 
and the Newark Airport operations community, resulting in comprehensive 
planning to support the participating team's arrivals and departures.
    Tennant information was solicited inside the New Jersey Marine 
Terminal community to track Class 7 Radiological and other hazardous 
material shipment activity traversing roadways in proximity to Super 
Bowl 48 events.
    Information sharing was initiated with supporting agencies in the 
Teterboro area via the transportation subcommittee, to meet the 
challenges faced by the increased VIP activity exiting and entering the 
facility during the operational period. Special security provisions 
were made utilizing designated parking areas at Newark Airport for the 
volumes of staged hired vehicles contracted for spectator 
transportation.
Technological Efforts
    The Port Authority Police Technical Services Division was solicited 
to support the Port Authority Police PAPD throughout the Super Bowl 
Operational Period. Camera view links were provided from The Tunnels 
Bridges and Terminal and PATH facilities for real-time situational 
awareness inside the PATC Emergency Operations Center. Camera views 
were shared with partner agencies at the New Jersey State Police 
Command Center within the American Dream Complex, The New Jersey 
Department of Transportation Operations Center, and the FBI IOC in 
Newark.
    Early in the inter-agency coordination process, the identification 
was made for inter-operable communication networks in the communication 
subcommittee meetings. Radio inter-operability patches across State 
lines to support the VIP escort mission during the Super Bowl 
Operational Period were created. All planned patches were tested at 
great length prior to implementation, and utilization. The networks 
performed superbly, and inter-agency coordination of effort was 
achieved via utilization of the inter-operable radio communications 
framework.
    In closing, the Security Deployment strategy generated in support 
of the Super Bowl Event was a major success. I would like to thank the 
regional partners for all their efforts and hard work in all phases of 
planning and operations in support of the Super Bowl XLVIII (48) event. 
Thank you.

    Mrs. Brooks. Thank you, Chief.
    I now recognize Chief Centanni for 5 minutes of testimony.

  STATEMENT OF JOHN G. CENTANNI, FIRE CHIEF, FIRE DEPARTMENT, 
                   CITY OF NEWARK, NEW JERSEY

    Chief Centanni. Yes, Madam Chairwoman, Ranking Member and 
Congressman. First I would like to thank you for having the 
Fire Service here and having a voice in these hearings, which I 
think is a very important step moving forward in that 
communication sharing.
    Newark Fire Department has a unique role in the region, 
being the largest fire department in the State and one of the 
largest givers of mutual aid and partners throughout the 
region. So in preparation and training for the Super Bowl 
event, the city of Newark Fire Department attended multiple 
meetings over several months with Federal, State, county, and 
local agencies, both on the public and private-sector side, 
including the Meadowlands Fire Department, in an effort to 
fully understand the scope of this event and the potential 
concerns and impacts that it would have on the region, and more 
specifically on the city of Newark in regards to fire service 
preparedness and operational concerns.
    Based upon information and lessons learned through early 
meetings, the Newark Fire Department, in coordination with the 
Division of Fire Safety and New Jersey Homeland Security 
office, and our county and regional coordinators, prepared an 
overall operation and response plan to strategically deploy 
assets throughout a coordinated response effort. Areas that 
were highlighted during our early meetings were familiarization 
training and drills for large hazardous material and 
decontamination of events. Potential areas of concern were also 
the marine area waterway events, and we worked alongside the 
United States Coast Guard, State Police, and our other regional 
fire department marine divisions to assure that we had an 
operational plan in place for such an event.
    We also worked closely with our USAR, Urban Search Area 
Rescue Strike Team and New Jersey Task Force 1 in multiple 
planning, training, and preparedness events. Our code 
enforcement fire prevention office engaged in early pre-
planning of areas that would be of concern for large gatherings 
and to be prepared for that type of venue.
    Interoperability and communications and preparedness for 
this event, the city of Newark Fire Department worked closely 
with Federal, State, county, and local agencies once again, as 
well as the Department of Homeland Security, to ensure radio 
communication and interoperability frequencies throughout all 
disciplines--i.e., fire, EMS, law enforcement--were achieved. 
Through various subcommittees made up of many of the 
aforementioned agencies, interoperability was achieved by 
testing involving mutual drills, formalized radio communication 
testing procedures, and actual sharing of equipment--i.e., 
portable radios, et cetera.
    An area of specific highlight for the city of Newark Fire 
Department was the mutual link capability which allowed us to 
stream real-time video information and audio information to the 
Command Center at the East Rutherford MetLife Stadium, as well 
as the New Jersey Rock and our OEM Center in Newark. I think 
that was quite helpful in showing the interoperability and 
capability of the fire side with the law enforcement partners.
    Overall, the Newark Fire Department, as I stated earlier, 
plays a unique role in the region, from preparing, training, 
interoperability communication response functions, to potential 
incidents and events could have occurred, specific 
infrastructure and points of concern of target areas for 
Newark--Newark Airport, Penn Station, waterways, multiple 
highways, Prudential Arena where we had the Super Bowl Media 
Day. So these were all areas of concern where we had to pre-
plan, pre-stage, and work drills out that we were prepared to 
respond in a supporting role with the law enforcement agencies.
    As the largest fire department in the area, I said it 
already, we have a unique role in being partners with all of 
our surrounding communities. Also noted in a cooperative 
effort, the Newark Fire Department, Patterson Fire Department 
were representing one of the USAR Strike Team agencies and the 
New Jersey National Guard Weapons of Mass Destruction Civil 
Support Team were embedded in Newark and prepared to respond as 
a task force to not only Newark but the entire region, if 
needed.
    Lessons learned for us in the Newark Fire Department. 
Overall information sharing and communication through the 
meetings and preparedness with the planning committee, law 
enforcement, and the fire service greatly improved throughout 
the process of the Super Bowl planning event. Early on, the 
fire department may have not been as engaged as they were later 
into the process, and I think that was a direct result of the 
partnerships coming together and very important to keep that 
moving forward.
    It is my opinion that continuing with that good effort of 
information sharing, multiple agency discipline training, 
drills, and functional operational plans as a united front will 
definitely strengthen the security efforts of any large-scale 
events, whether it be here in our region or anywhere across the 
country, and that would work in the truest sense of a united 
incident command front.
    Thank you.
    Mrs. Brooks. Thank you, Chief.
    At this time, I will now recognize myself for 5 minutes of 
questioning.
    This is really a question for all of you. As you worked to 
prepare for Super Bowl XLVIII, I am curious how you engaged 
with officials and public safety officials, first responders 
from prior venues. How did you learn about what it would take 
to put on a successful Super Bowl and keeping it safe? Are you 
working with next year's officials? So how is it that you 
worked with the prior year officials, and what kind of work are 
you doing with future Super Bowl officials, because obviously 
the Super Bowls are set for several years to come.
    Does anyone want to start us out?
    Mr. McLees. The Federal coordinator, there is a continuity 
that takes place, that has since 2001. The coordination team is 
usually appointed from, again, the local jurisdiction, and it 
is diverse in the sense that it was myself from the Secret 
Service, as well as a representative from NPPD, and critical 
infrastructure. So we were able to work with the past year's 
Federal coordination teams, and they sort-of showed us the 
ropes; and then, of course, we went to New Orleans the year 
before to watch it put into action. Just to add to that the 
point about the diversity of the team, working with the State 
Police, understanding the Federal resources that were out 
there, the spectrum of Federal resources that were available. 
We came from different places, so we had different viewpoints 
of how we could help and where we could find those resources.
    Mrs. Brooks. Had you been a Federal coordinator before 
prior to this incident?
    Mr. McLees. No, this was the first time.
    Mrs. Brooks. Or this event?
    Mr. McLees. This was the first time.
    Mrs. Brooks. So the different Federal agencies that you 
coordinated with, approximately how many were there?
    Mr. McLees. Over 30.
    Mrs. Brooks. So did you have separate meetings from, say, 
New Jersey State Police, or coordinating the Federal resources? 
Because I know even within the Department of Homeland Security, 
that can be a challenge.
    Mr. McLees. It was, and we did have DHS meetings in support 
of the effort where we would make sure that we understood 
everything that was there to offer, as well as the other 
agencies, and there were many, from DHS, HHS, DOJ, DOD. I mean, 
it was the alphabet in terms of support.
    Mrs. Brooks. Lieutenant Colonel.
    Lt. Col. Cetnar. From a New Jersey State Police 
perspective, what we did was the same as the Federal 
Government. We attended both the Super Bowl and the prior one 
in New Orleans to basically get their practices and best 
practices as to how they approached the Super Bowl. As you 
know, the Indy Super Bowl and the New Orleans Super Bowl are 
quite different from the New Jersey Super Bowl. Just the land 
structure alone and what we are surrounded by, we are not 
embedded into a city, brought a number of different challenges 
to us, as well as the proximity to New York City and the 
constant threat in this region of terrorism kind of brought a 
whole different host of issues for New Jersey to see.
    So what we did early on, working very closely with the NFL, 
was we developed our subcommittees. As we moved on, our 
subcommittees grew, as I testified, up to 28. What we did is, 
when we traveled to both venues, we had the folks that I put in 
charge of these different subcommittees. They would embed 
themselves with the folks in the departments of Indy, whether 
it was emergency management, police, tactical air operations, 
cyber intelligence, as well as New Orleans, and they mirrored 
those folks for the entire time we were there.
    Then on game day itself, they would observe the operations 
that were going on at both Super Bowls to bring back those best 
practices to New Jersey to sit with myself, as well as the FCO, 
and we would come up with our diverse plan for the New Jersey 
Super Bowl and the challenges that we were going to have.
    In addition to that, not only members of the New Jersey 
State Police but some of our partnering agencies, New Jersey 
Transit, Port Authority, all sent folks and bought into the 
concept that we started right from the beginning, taken our 
advisement from NFL as to what would work and what needed to be 
done in order to do a successful planning concept for this 
Super Bowl.
    So it was very worthwhile for us to do that, as well as our 
Super Bowl, we hosted Phoenix as well as Santa Clara to come in 
to see what we did here.
    So it is a partnership that continues from venue to venue, 
and everything that we have we are now offering to our future 
Super Bowl hosts to make sure that if there were best practices 
that we used here that worked, or if there were some other 
issues that maybe we would have done differently, we are 
getting ahead of that and making sure that they know that so 
they can make sure that they can have a very successful and 
safe Super Bowl also.
    Mrs. Brooks. Thank you.
    Would any others like to comment?
    Chief.
    Chief Koumoutsos. Yes. As the Lieutenant Colonel mentioned 
here, when this thing started 18 months ago and we started 
talking about the concept and the event coming into this region 
here, most of us, if not all the agencies that were involved, 
usually have a major event. We have New Year's Eve and several 
other venues that we are used to and that form themselves into 
this area quite frequently.
    The one thing that we have learned over time is 
communications, talking to each other, talking to the other 
agencies, having a Plan B, having a Plan C, what if, what if, 
the equipment, the radiological detectors that I testified to, 
and so many other resources and equipment that was used and 
deployed that can give us a heads-up, if you will, ahead of 
time, so this way we can react.
    The fact of the matter that we came together with other 
agencies and we used the patching technique, which allows 
multiple agencies to come together and talk on one frequency, 
enabled us to have the same message out there if something were 
to happen. We had a business continuity plan in place. We had 
other means in place. We had the harbor. We had the air 
covered. We had the tunnels covered. We had rapid deployment 
teams and strike teams.
    So we were certainly ready, and we were capable, and we 
were impressed with some of the drills, because we did exercise 
frequently during the off hours when people were not alarmed, 
and we would put something out to the public and advise that we 
are doing drills and we are planning.
    But really, the core mission of these drills was to 
understand the reality of it if something were to come up and 
how it would be handled.
    The other thing is, with all the officers out there, they 
got to meet each other. So if something did happen, they were 
able to interact, be it the fire department, the State police, 
the Federal agencies, the local agencies. So I do recall at the 
conclusion, which was late that morning, the next morning I 
should say, I did notice a lot of officers patting each other 
on the back for a job well done, and that is what it is about.
    Mrs. Brooks. Terrific. Thank you.
    Okay, thank you. I'm sorry, my time is up.
    I now would turn it over to Congressman Payne for 5 minutes 
of questioning.
    Mr. Payne. Thank you, Madam Chairwoman.
    This question is for all the witnesses. In the year leading 
up to the Super Bowl, we saw the Boston Marathon bombings 
devastate those participating in and watching the race. In the 
months leading up to the Olympics in Sochi, suicide bombings 
tore through mass transit sites in Russia. We had a committee 
hearing last week on first responders and lessons learned, and 
I just want to once again commend the officials in the Boston 
area that handled that situation that day.
    We found out that the scene for the most critically injured 
at the Boston Marathon were Medevac'd out of there within 22 
minutes of the bombing, which I felt was absolutely incredible 
to coordinate that effort and get the most severely wounded on 
the way to the hospital, that scene clear with the most injured 
within 22 minutes.
    So my question is: What changes, if any, did you make to 
your security planning after the Boston bombings to address the 
threat of attacks of mass transit during the Super Bowl?
    Mr. McLees.
    Mr. McLees. From the mass transit perspective, there were a 
lot of policies put in place by the NFL which changed the way 
that people entered the stadium, and it was the clear bag 
policy--no backpacks--and essentially pushing that opportunity 
further and further away from the stadium, and that was put 
into place in the mass transit system as well.
    Again, from the Federal perspective, the assets that we 
offered to assist in that system were--the rail link between 
Secaucus Junction and New Jersey Transit at the stadium, we 
added TSA assets there to assist them in screening bags before 
they left to get inside that perimeter.
    Lt. Col. Cetnar. As you alluded to, the trains and mass 
transit system, and this Super Bowl being deemed the mass 
transit Super Bowl, bringing folks from 2 weeks prior, we 
didn't know where they were coming from, had they ever been to 
New York City, ever been to New Jersey. These posed great 
concerns to us and how we were going to move people safely.
    Chief Trucillo of New Jersey Transit was embedded with us 
right from the start from a planning concept. So as we 
discussed, we had air, land, and sea concept. The water-borne 
issue was because of the proximity to the water surrounding 
MetLife Stadium. That was a law enforcement issue. But the 
trains and buses, how we enhanced some of the issues of package 
screening, as well as behavioral science techniques to make 
sure we used everything possible to prevent any disruption of 
the event or somebody disrupting the buses or the rail system.
    TSA was a huge partner with us, and Mr. McLees was one of 
the partners that made that possible for us to use the TSA 
screeners, as well as some of the folks that we trained using 
DHS funding from behavioral science using Patriot training. 
These were huge things that a lot of our troopers, hundreds of 
troopers were trained in behavioral analysis to hopefully 
detect disruptive behavior that was going on, or if somebody 
wanted to infiltrate the Super Bowl or mass transit system to 
cause disruption. We used this concept throughout the NFL 
season, and unlike any other venue throughout the country, 
MetLife Stadium has a game every week because we host two 
teams. So we had a lot of practice in exercising throughout the 
season using the techniques and some of the rail practices and 
screenings throughout the year.
    So we rehearsed for 16 weeks about training some of the 
things that we wanted to leading up to Super Bowl Sunday. As 
you know, it was very successful because there was no 
disruption to the Super Bowl, and it was because of the 
coordinated efforts between the law enforcement agencies that 
were brought together and how we seamlessly made sure that 
there was transparency in communication and everything that we 
had to do, and that was critical.
    Anything that I had as a concern, I needed to share that 
with every one of our partners out there to make sure if they 
had information that came back to me and it was operated and 
communicated out of one location, so everybody was sharing 
real-time information.
    Chief Koumoutsos. Good morning, sir. Leading to the event, 
going back a little bit, there are some things that we do 
deploy on a daily basis because of the number of folks that we 
have traversing through our facilities. One of the things that 
we use is what we call a bag check, where we go through the 
bags of certain people through a sequence number, and that was 
intensified during the Super Bowl week and that weekend.
    The step-on/step-off concept, where we step on the trains 
with officers with heavy weapons, we look around, and we step 
off, not delaying the train, of course, but it takes less than 
30 seconds. The same thing with the buses at our bus depots, at 
the bus station. At the George Washington Bridge, same concept.
    At the airports on arrival, officers meeting airplanes, 
officers down at the arrivals area with heavy weapons, just 
looking, using the Patriot training, behavioral assessment, 
some of the tools that we used and that we currently use every 
day. We just expanded it by a few hours, and that is 12 hours 
in total because we prepared before and we prepared after.
    The super searches. What does that mean? Officers go and 
enforce, go through a station or a bus depot and a heavy 
presence used, and the radiological pagers, the backpacks and 
so on. Multiple agency super searches where we get multiple 
agencies in New York City where we do backpack assessments, we 
do checks of various stations and so on. So this is a big, big 
thing that we do in the tri-State--actually, in New York City.
    And, of course, the technology that we use.
    Chief Centanni. Congressman, on the response side for the 
Fire Service, it is always in a supporting role to one of these 
events, or more so in a supporting role, although we did learn 
the lessons that we can be there in a preventive role also. But 
as we referenced to the event, I think some of the lessons 
learned, the boots on the ground, the relationships, that 
relationships that we built with the State Police and all of 
our agencies that are here now are important, and they are so 
important to the fact of, as we speak, we have multiple Federal 
and State agencies doing joint training with our Special 
Operations Division in Newark based on what they have learned 
from the inter-cooperation and interoperability that we saw 
during the Super Bowl, and I believe that that really makes 
that Boston scenario work when you come together at that scene. 
You have the relationships. You already have the technology put 
in place to make a nice, cohesive response.
    Mr. Payne. Thank you, sir.
    I yield back.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes the gentleman from New 
Jersey, Mr. Pascrell, for 5 minutes of questioning.
    Mr. Pascrell. Thank you.
    Critical to any implementation of communication and 
interoperability, we saw what a disaster that was on 9/11, so 
let's focus now on our own period of time here. How would you 
rank, on a scale of 1 to 5, 5 being the best, the 
communications and interoperability that each of you 
participated in at the Super Bowl? I want you to be as frank as 
possible, 1 to 5.
    Mr. McLees. I would say it was a 5. The DHS--there was a 
subcommittee on communications interoperability that supplied 
personnel from the District of Columbia, as well as my agency, 
and from my experiences there were no problems with 
communications in the week-and-a-half, 2 weeks operational 
period leading up to the event.
    Mr. Pascrell. Lieutenant Colonel, you talked about the 
multiple agencies involved here, a lot of agencies, so I am 
anxious to hear what you have to say about that.
    Lt. Col. Cetnar. Sir, you know, the months after the Super 
Bowl, as I have been speaking to a lot of different folks about 
how we did this, how we put this together, communications--I 
will go with the interoperability part first. I had that as a 
5. It was a very complex plan that we had to put together. When 
you are dealing with over 100 different agencies, as well as 
communicating with the private sector, four counties in New 
Jersey, four towns in New Jersey, the State of New York, New 
York City, our Federal partners, it goes on and on and on, to 
tie all of them in to where we had our command post, as well as 
the Rock, the FBI, those were monumental concerns of ours, how 
we were going to communicate, and God forbid we had an 
incident, that everything was going to continue on to us doing 
our next steps with search and rescue, recovery, as well as 
dealing with a potential crime scene if, in fact, we were 
attacked.
    From that standpoint, the interoperability I thought was 
very seamless, and let me step back to the other issue of 
communication. Having over 100 different agencies, as well as 
private-sector folks in New York and New Jersey informed as to 
what was going to happen the week leading up to the Super Bowl, 
as well as Super Bowl Sunday, when we developed our 
subcommittees, as I said, we had up to 28 of them, one of the 
best things that we did in New Jersey right from the start was 
once we identified our chairs and co-chairs, which was usually 
a New Jersey State Trooper commander or someone from the 
Federal side or, if it didn't apply, the fire side, the experts 
that needed to do that because obviously the State Police was 
not going to dictate what Fire needed to do, that was their 
expertise, but they were embedded into the system with us and 
the subcommittees.
    We started briefings every 30 days. Now, you would think 18 
months out, 2 years out, folks every 30 days we had to brief 
out, it worked, because after 30 days, if you had an issue, no 
matter what the agency was, you only had 30 days to deal with 
that, and once you brought it to myself and the other 
commanders that were there, we then, if we had to take it to 
the executive level folks, which were the heads of the other 
agencies----
    Mr. Pascrell. So you would give it a 5, too?
    Lt. Col. Cetnar. I would give it a 5, and I thought it was 
absolutely seamless.
    Mr. Pascrell. How about you, Chief?
    Chief Koumoutsos. Sir, I would give it a 5. We started 
early, as the Lieutenant Colonel mentioned. We had the 
opportunity to have several drills, communication drills with 
the other agencies. One thing I want to bring out is the fact 
that we had over 100 VIP movements through the Lincoln Tunnel 
within a 2-hour window.
    Mr. Pascrell. What are VIP movements?
    Chief Koumoutsos. The teams had their officials coming 
through the hotels in New York and the Boulevard. They were----
    Mr. Pascrell. Was that a distraction for you to do your 
job?
    Chief Koumoutsos. No, no, because it was all sequenced and 
everything was planned out properly. That took several 
agencies--NYPD, PAPD, and other folks, the Weehawken guys.
    Mr. Pascrell. Did you communicate to the Fire Department?
    Chief Koumoutsos. They were with us, sir. They were with us 
the entire time. We had a truck actually standing by right 
outside the Lincoln Tunnel, and one on the other side, on the 
New York side. We had tow trucks in place. We were 
communicating with them in the event we had a disabled vehicle 
in the tunnel. So it was flawless. It worked. The drills 
leading up to the event worked. I had two great lieutenants 
here behind me that were behind the whole process and they kept 
me informed, and we kept on pushing because, you know what? 
Everybody needed to know what everybody was doing.
    Mr. Pascrell. Chief, you know what happened on 9/11, and 
other things since.
    Chief Centanni. Yes.
    Mr. Pascrell. Our Fire Department was in left field, and 
public safety, the rest of public safety was in right field. 
How has that changed in terms of this past example of this mass 
gathering?
    Chief Centanni. I think what the Super Bowl showed us, it 
can be done. Through these subcommittees, the drills, the 
training, the sharing of equipment, it happened. It happened 
flawlessly. Would that happen right now if we go to an event? I 
am not as confident as that day, but I would defer to what I 
heard here today. When you talk about a 5, I was in shock. My 
biggest concern was communication, especially coming from the 
fire side, being able to communicate with law enforcement. 
Through the commitments of the State Police releasing certain 
frequencies, the coordination of all of the agencies, assuring 
that everyone was able to communicate, it was unbelievable, and 
I was very impressed with it. We need to be able to do that on 
a daily basis.
    Mr. Pascrell. Madam Chairwoman, I am very impressed with 
the responses. I can't stay for the entire hearing, but I want 
these guys to know, you gentlemen to know that we want to be 
helpful to you because you have situations that you cannot, 
within your own agency, solve. So if we can't be of any help, 
then we shouldn't be here. So we want to know this. I am sure I 
speak for the Chairwoman and Mr. Payne. As to any information 
you can give to us during this hearing, whether it be Panel 1 
or Panel 2 as to what would you have changed, would you have 
changed anything? Now, if you are telling me you wouldn't have 
changed anything, then I know something is wrong. So that is 
why we are here, and thank each of you for your testimony. 
Thank you.
    Mrs. Brooks. Thank you very much, Congressman, for that 
very important line of questioning, and I would like to 
reiterate what the really senior Member of Congress here is 
sharing with us. That is why we are here, to learn from you as 
well, and for us to be resources for you. I just would like to 
commend all of you for your valuable testimony. I would like to 
also commend my former colleague at the Justice Department, 
your Governor, Governor Christi and Governor Cuomo and the 
mayors who worked on this, those who lead your agencies, for 
such an outstanding job in governing over such an incredible 
event. So I just want to thank you all.
    The record will be open for up to 10 days. Normally we 
might have another line of questioning, but we have a very 
important second panel, and so we might be submitting other 
questions to you. So the record will remain open, and you can 
respond in writing if you should receive any other questions.
    So at this time, you are now dismissed, and we will just 
take a very brief break. I want to thank you all so very much 
for your time, and I appreciate your outstanding work.
    Mr. Payne. Madam Chairwoman, just before we break up, I 
wasn't going to do this, but I think there is a gentleman in 
the audience that has played a vital role in Newark doing the 
job that it has done so far in terms of OEM and homeland 
security, and that is Keith Isaacs, who is our director here in 
Newark. The Rock is a great place, but you have to come to 
Newark to see our facility. It is first class. We are very 
proud of the work that he is doing every day. Thank you.
    Mrs. Brooks. Thank you.
    This panel is now dismissed, and the Clerk will prepare the 
witness table for our second panel.
    [Recess.]
    Mrs. Brooks. I would like to welcome everyone on our second 
panel to today's hearing, and thank you for your participation.
    At this time, Ranking Member Congressman Payne is going to 
introduce parts of our panel.
    Mr. Payne. Thank you, Madam Chairwoman.
    Mr. Dan Grossi is the director of event security for the 
National Football League, a position he has held since January 
2011. In this capacity, he is responsible for the planning and 
implementation of security at all major NFL events, including 
the Super Bowl and the NFL draft. Mr. Grossi has previously 
served as the NFL Security Representative in Tampa, Florida, 
with the Tampa Police Department, and with the United States 
Capitol Police.
    Mr. Daniel DeLorenzi is the director of safety and security 
services at MetLife Stadium, a position he has held since 2009. 
In this position, he is responsible for creating and 
implementing emergency operation plans and coordinating State 
and security operations with law enforcement, the fire 
department, and EMS. Prior to this position, he has served as 
the director of security for Bank of America and was the deputy 
chief of police for the Police Department in Newark, New 
Jersey.
    Wow, I had a tough time with that one.
    I yield to the gentlelady.
    Mrs. Brooks. Thank you.
    At this time, I would like to welcome my constituent, Mr. 
Doug Boles, who is serving as president of the Indianapolis 
Motor Speedway since July 2013, previously serving as the 
Speedway's vice president of communications. He has also worked 
in the Indiana House of Representatives, and we both worked for 
former mayor of Indianapolis, Steve Goldsmith. He served as 
director of governmental and corporate affairs for the city of 
Indianapolis.
    I want to welcome you to New Jersey.
    Mr. Payne. Then we have Dr. Fred Roberts. He is the 
director of the Command, Control, and Interoperability Center 
for Advanced Data Analysis at Rutgers University and Department 
of Homeland Security Center of Excellence. He is also a 
distinguished professor of mathematics and serves as the 
director emeritus and senior advisor of the Center for Discrete 
Mathematics and Theoretical Computer Science. He has completed 
research related to stadium security, container inspection at 
ports, sensor management for nuclear materials detection, and 
the early warning of disease outbreaks in bioterrorism events.
    Mrs. Brooks. I was pleased to learn, actually, that 
Purdue's Homeland Security Center of Excellence is a partner of 
your university, and so pleased that Indiana and New Jersey are 
working together on homeland security issues beyond our work 
together.
    The witnesses' full written statements--I want to thank you 
all for your written statements--will appear in the record.
    The Chairwoman now recognizes Mr. Grossi for 5 minutes of 
testimony.

  STATEMENT OF DAN GROSSI, DIRECTOR, EVENT SECURITY, NATIONAL 
                        FOOTBALL LEAGUE

    Mr. Grossi. Madam Chairwoman Brooks, Ranking Member Payne, 
Member Pascrell, and Members of the subcommittee, thank you for 
inviting me here to testify today. My name is Dan Grossi. I am 
the director of special event security for the National 
Football League. I appreciate the opportunity to be here and 
offer testimony. I hope that the NFL's successful experiences 
in working with a number of different public safety 
organizations to ensure the security of its games can be a 
model for similar high-profile mass gatherings.
    The Super Bowl is one of our Nation's classic mass 
gatherings. The League sets out to strike an appropriate 
balance, ensuring that fans enjoy a rich and festive in-stadium 
experience while making their safety and security paramount. At 
Super Bowl XLVIII, MetLife Stadium hosted 82,000 fans in 
addition to 10,000 vendors, staff, and members of the National 
and international media. Additionally, 112 million people 
watched the game on television. The week leading up to the 
game, tens of thousands of people attended official Super Bowl 
events at several locations in New York and New Jersey.
    Ensuring a safe and successful outcome at such a huge 
undertaking requires significant advance preparation and 
cooperation between a number of stakeholders including Federal, 
State, and local agencies, as well as other public and private 
interests.
    The NFL does not create the security plan for Super Bowls. 
That is the role of law enforcement and other public safety 
organizations. Instead, the NFL is a resource for these 
organizations, focusing on helping them with coordination and 
offering them insights based on experience.
    The NFL normally begins planning for Super Bowl security 
about a year before the game and meeting with public safety 
officials and discussing broad plans. For Super Bowl XLVIII, we 
started our planning meetings about 2 years in advance of the 
game based on the request of the New Jersey State Police. At 
these early meetings, we work on the basics of the security 
plan; for instance, determining which organization is 
responsible for which aspects of Super Bowl security.
    We hold a planning meeting in April, a full production 
meeting in June, another planning meeting in October, and a 
final production meeting in December. During the time leading 
up to the game, the group runs countless simulations of 
possible security events. In addition to other security 
planners, I will generally attend five or six regular-season 
games at the host stadium. These visits give us a first-hand 
look at the stadium in use and occupied by fans. Again, each 
Super Bowl is a unique event depending on a variety of factors, 
some of which can be discovered only by on-scene experience.
    The lead planning organizations also depend on 
circumstances for the particular Super Bowl. Super Bowl XLVIII, 
although the game was held at MetLife Stadium in New Jersey, a 
significant number of events, including the week-long Super 
Bowl Boulevard event, were held in New York City. So the New 
Jersey State Police and the NYPD shared the responsibility as 
co-leads. Public safety organizations from surrounding 
jurisdictions assisted with game-day security.
    When the game is being held in a smaller jurisdiction with 
a smaller law enforcement agency, the coordination is generally 
done by a coalition of law enforcement agencies to support the 
game. This is the case for Super Bowl 50, the 2016 Super Bowl 
which is held at Levi Stadium, the San Francisco 49ers' home 
stadium located in Santa Clara, California. The Santa Clara 
Police Department will be the lead agency and will receive 
significant support from other public safety organizations and 
surrounding jurisdictions.
    A number of Federal agencies also play an integral role in 
preparing and implementing the security plan. The FBI, the 
Department of Homeland Security, and the Secret Service are 
resources for the NFL and our public safety partners. They 
provide valuable intelligence and expertise in Super Bowl 
planning. The FBI works with State and local law enforcement 
and other Federal agencies to run background checks on the 
staff that will be working the Super Bowl. Customs and Border 
Protection, CBP, is also involved in the security plan and is 
responsible for searching and screening vehicles that come 
within the Super Bowl secure perimeter. The U.S. Postal Service 
is responsible for screening mail. The FAA issues a temporary 
flight restriction for the event which restricts aircraft from 
flying in close proximity to the Super Bowl.
    Our goal with all the advanced planning is to ensure that 
everything goes as planned, while at the same time planning for 
any eventuality. It is absolutely vital that every organization 
knows its role and responsibilities, and that information is 
shared among the organizations seamlessly and in real time.
    To help facilitate this cooperation and communication, 
senior officials from all of the stakeholders remain in the 
command post throughout the event.
    As mentioned, the TFR protects the stadium perimeter by 
air, which is an extremely important component of Super Bowl 
security. For Super Bowl XLVIII game day, the FAA issued two 
TFRs. The first one began at noon for a 1-mile nautical ring 
around MetLife Stadium. No flights other than law enforcement 
flights are allowed in this 1-mile ring. The second TFR began 
at 5:00 p.m. The CBP and, if necessary, the Air Force are 
responsible for enforcing the TFR. TFRs are very important for 
helping to ensure the security for all Super Bowl games and 
events.
    Of course, this is just a brief summary of the massive 
undertaking that is securing the Super Bowl. Success requires 
the cooperation of and coordination with numerous organizations 
and countless people.
    The NFL is very thankful for the assistance of our Federal, 
State, and local partners, and we hope that we can continue to 
be a resource to them. Thank you again for the opportunity to 
testify today on such an important issue to the National 
Football League and the Nation. I look forward to your 
questions.
    [The prepared statement of Mr. Grossi follows:]
                    Prepared Statement of Dan Grossi
                             June 23, 2014
    Madam Chairwoman, Ranking Member Payne, Members of the 
subcommittee, thank you for inviting me here to testify today. My name 
is Dan Grossi. I am the director of special events security for the 
National Football League. I appreciate the opportunity to be here and 
offer testimony. I hope that the NFL's successful experiences in 
working with a number of different public safety organizations to 
ensure the security of its games can be a model for similar high-
profile mass gatherings.
    The Super Bowl is one of our Nation's archetypical mass gatherings. 
The league sets out to strike an appropriate balance, ensuring that 
fans enjoy a rich and festive in-stadium experience, while making their 
safety and security paramount. At Super Bowl XLVIII, MetLife Stadium 
hosted 82,529 fans, in addition to approximately 10,000 vendors, staff, 
and members of the National and international media. Additionally, 112 
million people watched the game on television. And in the week leading 
up to the game, tens of thousands of people attended official Super 
Bowl events at several locations in New Jersey and New York. Ensuring 
the safe and successful outcome of such a huge undertaking requires 
significant advance preparation and cooperation between a number of 
stakeholders, including State and Federal agencies as well as other 
public and private interests.
    Over the past few decades, starting even before September 11, the 
NFL has developed extensive experience in applying protocols to 
facilitate cooperation and preparation among stakeholders responsible 
for designing and implementing Super Bowl security. These protocols 
have been continually refined over time. The NFL does not create the 
security plans for Super Bowls; that is the role of law enforcement and 
other public safety organizations. Instead, the NFL is a resource for 
these organizations, focusing on helping them with coordination and 
offering them its insights based on experience. Each Super Bowl is a 
unique event, depending on the characteristics of the location, the 
jurisdictions involved, and a number of other factors. One size does 
not fit all when it comes to planning Super Bowl security. The NFL's 
processes take these different needs into account by helping the 
coordination between State and Federal agencies who can apply their 
expertise to the circumstances of that particular Super Bowl. The 
following is a brief summary of our experiences in coordinating the 
preparation and implementation of a Super Bowl security plan.
                     importance of advance planning
    The NFL normally begins planning for Super Bowl security about a 
year before the game by meeting with public safety officials and 
discussing broad plans. For Super Bowl XLVIII, we started with planning 
meetings about 2 years in advance of the game, based on the request of 
the New Jersey State Police, who along with the N.Y.P.D., were the lead 
public safety organization for the event. Our first meetings are 
generally with the Super Bowl's lead coordination and planning 
organization, which since Super Bowl XXXVI (the 2002 Super Bowl in New 
Orleans) have been State or local law enforcement agencies. That Super 
Bowl was designated a full National Special Security Event (NSSE), with 
the U.S. Secret Service as the main planning and coordinating public 
agency. Subsequent Super Bowls have been Special Event Assessment 
Rating (SEAR) 1 events, in which the lead planning and coordinating 
agency is a State or local one.
    At these early meetings, we work on the basics of the security 
plans, for instance, determining which organization is responsible for 
which aspects of Super Bowl security. As the meetings continue, we 
focus on coordinating the efforts of the different organizations to 
ensure that their plans and protocols complement each other. These 
plans change as they are fine-tuned by the organizations, and we have 
found that in-person meetings are the best way to share information and 
keep the stakeholders updated throughout the planning process. We hold 
a planning meeting in April, a full production meeting in June, another 
planning meeting in October, and a final full production meeting in 
December. During the time leading up to the game, the group runs 
countless simulations of possible security events.
    In addition, other security planners and I will generally attend 
five or six regular season games at the host stadium. These visits give 
us a first-hand look at the stadium in use and occupied by fans. Again, 
each Super Bowl is a unique event, depending on a variety of factors, 
some of which can be discovered only by experience. It is very 
important that the plan takes the different circumstances of Super 
Bowls into account. Super Bowl XLVIII was a cold-weather Super Bowl, 
held at an outdoor stadium. This factor affected our plan in a number 
of ways. For instance, we expected that fans would come to the game 
wearing winter coats and hats, therefore adding to the screening time 
that we normally see at warm weather Super Bowls. Although the cold 
weather turned out not to be an issue, seemingly minor details like 
fans' seasonal clothing need to be factored into the security plan.
                         need for coordination
    The coordination I have been describing is particularly important 
given the number of organizations involved and their varying roles. As 
I mentioned earlier, the identities of the lead security coordinating 
organizations depends on the security rating that the Department of 
Homeland Security gives to the event. When the Super Bowl is deemed an 
NSSE, like the 2002 New Orleans Super Bowl, the Secret Service is the 
lead security coordinating organization, and under other ratings, the 
lead organization is generally a State or local law enforcement agency 
for the jurisdiction in which the host stadium sits. The lead planning 
organization or organizations also depend on the circumstances of the 
particular Super Bowl. For Super Bowl XLVIII, although the game was 
held at MetLife Stadium in New Jersey, a number of significant events, 
such as the almost week-long Super Bowl Boulevard event, were held in 
New York City, so the New Jersey State Police and the N.Y.P.D. shared 
the responsibilities as co-leads. Public safety organizations from 
surrounding jurisdictions assisted with game-day security. When the 
game is being held in a jurisdiction with a smaller law enforcement 
agency, the coordination lead will generally consist of a coalition of 
local law enforcement agencies from surrounding jurisdictions and the 
State law enforcement. This is the case for Super Bowl 50, the 2016 
Super Bowl, which will be held at Levi's Stadium, the San Francisco 
49ers's home stadium, located in Santa Clara, California. The Santa 
Clara Police Department will be the lead agency, and it will receive 
significant support from other public safety organizations from 
surrounding jurisdictions.
    A number of Federal agencies also play an integral role in 
preparing and implementing the security plan. The Federal Bureau of 
Investigation (FBI), Department of Homeland Security (DHS), and Secret 
Service are significant resources for the NFL and our public safety 
partners. They provide valuable intelligence, and lend their expertise 
in security planning. The FBI also works with State and local law 
enforcement and other Federal agencies to run background checks on the 
staff who will be working the Super Bowl. Customs and Border Protection 
(CBP) is also involved in the security plan and are responsible for 
searching and screening vehicles that come within the Super Bowl's 
secure perimeter. The U.S. Postal Service (USPS) is responsible for 
screening mail and parcels. Visible Intermodal Prevention and Response 
(VIPR) teams from the Transportation Security Administration (TSA) 
assist our State and local partners with mass transit security. The 
Federal Aviation Administration (FAA) is in charge of planning the 
Temporary Flight Restrictions (TFR) for the event, which restricts 
aircraft from flying in close proximity to the Super Bowl, and the U.S. 
Air Force and CBP enforce that perimeter. And for Super Bowl XLVIII, 
the Coast Guard provided security on the waterways surrounding MetLife 
Stadium.
    There are also private contractors that the NFL uses for preparing 
and implementing the security plan. For instance, the NFL has worked 
with Populous, formerly known as HOK Sport, on security architecture 
for Super Bowl stadiums for at least 20 years. They assist in adapting 
the security plan to suit the stadium's physical structure and help 
determine where to put security structures, such as magnetometers and 
where to station certain security personnel.
                                game day
    Our goal with all of the advance planning is to ensure that 
everything goes as planned, while at the same time preparing for any 
eventuality. It is absolutely vital that every organization knows its 
role and responsibilities and that information is shared among the 
organizations seamlessly and in real time. To help facilitate this 
cooperation and communication, senior officials from all of the 
stakeholders remain in a command post during the event. Decisions there 
can be made immediately, which is particularly important given the 
fluid nature of the plans and circumstances.
    One of our biggest concerns is securing the stadium perimeter. 
Starting about a week before the game, the CBP, Department of Energy, 
and other Federal and State and local agencies work together to screen 
every vehicle that comes into the stadium secure perimeter. The TFR 
also protects the stadium perimeter by air, which is an extremely 
important component of Super Bowl security. For Super Bowl XLVIII game 
day, the FAA issued two TFRs. The first TFR, beginning at noon, was for 
a 1-nautical-mile ring around MetLife Stadium. No flights other than 
law enforcement flights were allowed within this 1-nautical-mile ring. 
The second TFR began at 
5 p.m. It consisted of two rings, one with an 8-nautical-mile radius 
and one with a 30-nautical-mile radius. Only law enforcement flights 
were allowed within the 8-nautical-mile ring. Only aircraft squawking a 
transponder code and in contact with Air Traffic Control were allowed 
within the 30-nautical-mile radius ring. The CBP, and if necessary the 
Air Force, were responsible for enforcing the TFR. TFRs are very 
important for helping to ensure the security for all NFL games, and the 
Super Bowl in particular.
    We are also have an extensive credential system in place to ensure 
that staff are where they are supposed to be. Perhaps unsurprisingly, 
many people want to be as near the field as possible. But we work 
closely with our Federal and State law enforcement partners to ensure 
that the credentials for sensitive areas are very tightly controlled 
and that on game day only properly credentialed individuals are in 
these locations. We use electronically restricted access and color-
coded credentialing, and we train all staff to challenge anybody who 
does not have the proper credential for a given area.
                               conclusion
    Of course, this is just a brief summary of the massive undertaking 
that is securing the Super Bowl. Success requires the cooperation of 
and coordination with numerous organizations and countless people. The 
NFL is very thankful for the assistance of our Federal, State, and 
local partners, and we hope that we can continue to be a resource to 
them. Thank you again for the opportunity to testify today on such an 
important issue to the NFL and the Nation. I look forward to your 
questions.

    Mrs. Brooks. Thank you so much for your testimony, Mr. 
Grossi.
    The Chairwoman now recognizes Mr. DeLorenzi to testify for 
5 minutes.

 STATEMENT OF DANIEL DE LORENZI, DIRECTOR, SECURITY AND SAFETY 
                   SERVICES, METLIFE STADIUM

    Mr. DeLorenzi. Good morning. First I would like to describe 
my role at MetLife Stadium. I represent the private sector. You 
know, we talk about the private sector here, and we have heard 
from public safety officials and how the----
    Mrs. Brooks. Could you speak a little closer to the mic?
    Mr. DeLorenzi. I'm sorry.
    Mrs. Brooks. Thank you. Is it on? Yes.
    Mr. DeLorenzi. I am going to describe my role as 
representing the private sector, specifically as it relates to 
the Super Bowl, but also in day-to-day operations. I can give 
you feedback. I know there is strong encouragement on a 
National level for public safety and the private sector to 
interact seamlessly, and I can assure you that takes place at 
MetLife Stadium, not only for the Super Bowl but for every 
event that we have there.
    It is my job as the director of security not only--and we 
didn't talk about this very much. We talked about fire, police, 
law enforcement, but emergency medical service as well, another 
very important component of being able to prepare and respond 
to emergencies that may happen at the stadium.
    I spend most of my time at the stadium making sure that 
everyone understands their role and how we are going to respond 
as a team, and that happens. In fact, in our command center on 
a day-to-day basis, for any event that we have at MetLife 
Stadium, we have representatives sitting side-by-side in our 
command center. You have an EMT person, a fire person, a police 
person, the FBI, and they sit there and they have face-to-face 
communications. It is the best way to operate. It works, and it 
encourages cooperation.
    The two points I would like to make are I guess there is 
another group here that we didn't represent, and that is the 
civilian population, the security guards, the hundreds--I can't 
give you specific numbers, but close to a thousand people that 
we have working every event who are really not security guards. 
I talk to them and it is my job to train them and encourage 
them and motivate them and lead them to do this job, and it is 
a homeland security job that they are doing many times. The 
whole ``see something, say something'' is an important part of 
what they do.
    We actually have guards out there--remember, they are 
screening not only vehicles but they are screening people, and 
we all know what they are screening for. They are there for a 
part-time job, but they are also there because they believe in 
what they are doing. If you don't believe in what you are 
doing, you are only there for a short time. I can say we have a 
very low turnover rate. These people come. They came after 
Super Storm Sandy last year for the New York Giants and the 
Pittsburgh Steelers game, when New Jersey was devastated in 
many areas, and these people show up week after week, and they 
do a great job. They work very closely with the police and fire 
and EMS.
    But again, from a homeland security perspective, we know 
what the threats are. We don't have a generalized anxiety about 
what we are worrying about. We know specifically that we are 
worried about vehicle-borne threats, person-borne threats, 
those types of things, and we identify those things, and we do 
specific things not only with the civilian force but also with 
the sworn force of the police and the FBI.
    So we are concentrating on the intelligence we have. We do 
a threat assessment and a vulnerability assessment every year 
for the stadium and for each event, not only the Super Bowl, 
for each game, which I like to think are National events when 
you have the Cowboys playing the Giants on Sunday Night 
Football and we have the Jets playing the Patriots on Monday 
Night Football. There is no doubt about it, that is a National 
event.
    The Super Bowl came along. We did a lot of things. But I 
will tell you what, we do a lot of things for every single 
football game that you probably don't realize. I have the 
personal opinion that a lot of these things I do is because, 
yes, I was a public safety official before, but I am personally 
motivated to make sure that we leave nothing out of what we can 
reasonably be doing. I can assure you that we are doing 
everything we can possibly do. Thank you.
    [The prepared statement of Mr. DeLorenzi follows:]
                 Prepared Statement of Daniel DeLorenzi
    The MetLife Stadium Emergency Management Plan provides guidance for 
emergency management policies and responsibilities in the event of an 
emergency or wide-spread disaster. MetLife Stadium has developed its 
Emergency Management Plan pursuant to the National Football League Best 
Practices for Security, the National Incident Management System, and 
the Incident Command System. The Incident Command System provides a 
standardized organizational structure to manage all types of 
emergencies and is designed to enable effective and efficient incident 
management that is used by all levels of government as well as private-
sector organizations. The purpose of this plan is to organize MetLife 
Stadium operations and to support public safety counterparts to prepare 
for, respond to, and recover from a broad spectrum of emergencies, from 
small to complex incidents, both natural and man-made. MetLife Stadium 
has established an Incident Command structure that is designed to 
appropriately correspond with the Incident Command structure that will 
be employed by the various public safety agencies. Developing an 
emergency management plan to cover every conceivable disaster situation 
and response activity is impracticable. However, the concepts and 
components outlined in the MetLife Stadium plan have a broad range of 
applicability to a wide variety of emergencies that may occur. This 
plan provides guidance to allow MetLife Stadium to manage its 
responsibilities before, during, and after an emergency and can help 
meet the demand of a particular event or an escalating crisis. This is 
accomplished through a combination of training, planning, and 
coordination of resources and public safety resources.

    Mrs. Brooks. Thank you, Mr. DeLorenzi.
    The Chairwoman now recognizes Mr. Boles to testify for 5 
minutes.

 STATEMENT OF J. DOUGLAS BOLES, PRESIDENT, INDIANAPOLIS MOTOR 
                            SPEEDWAY

    Mr. Boles. Thank you, Chairwoman Brooks, Ranking Member 
Payne, Congressman Pascrell. I am excited to be here on behalf 
of the Indianapolis Motor Speedway and the Hulman George 
Speedway and Hulman & Company, which is our parent company 
which owns the Indianapolis Motor Speedway.
    I sat here this morning and listened to the first panel. I 
can't help but be struck by how much talk there was about the 
Super Bowl. We hosted the 46th Super Bowl in Indianapolis in 
2012, and many of these conversations have taken place in our 
community. We would certainly like to host another Super Bowl.
    What is unique about the Indianapolis Motor Speedway, our 
host committee chair for the 46th Super Bowl was Mark Miles, 
who is now the CEO of Hulman & Company, so my boss. So we often 
are talking about how do we work together with public safety 
agencies to make our event safe, as well as working with events 
that come into Indianapolis and how do we leverage the 
Indianapolis Motor Speedway to make those better?
    The Indianapolis Motor Speedway is best known for the 
Indianapolis 500, an event that has been taking place since 
1911. We just had our 98th Indianapolis 500 a little over 3 
weeks ago, and we will host our 100th in 2016. I am not a 
mathematician myself, but knowing 1911 to 2016, it is hard to 
get to 100 when you put those together. We did skip a couple of 
events during World War I and World War II, and in 1945, after 
World War II, the Hulman George family actually bought the 
Indianapolis Motor Speedway and has continued to own it since 
then.
    We are one of only three major race tracks in the United 
States that is not owned by a publicly-held corporation, and it 
is something that the family takes an awful lot of pride in, 
owning that organization and being part of Indianapolis.
    With respect to our mass gathering planning and how we work 
with public service agencies, including emergency medical 
facilities and emergency medical companies who are helping us, 
we begin that essentially as soon as the race is over. So we 
have already started planning for 2015.
    To give you a little bit of an idea about our facility 
itself, the facility is a 2\1/2\-mile race track built in 1909 
that sits on 275 acres inside a 1,000-acre complex that we 
have. It seats a little over 240,000 people inside permanent 
seating. Those seats alone take up 20 acres. You could 
literally fit 15 Lucas Oil Fields inside of our Indianapolis 
Motor Speedway. So 15 of the stadiums that hosted the 46th 
Super Bowl can fit inside the Indianapolis Motor Speedway.
    On race day, between public safety agency personnel, as 
well as our own personnel that are there, you have over 3,000 
people working to make sure that they are taking care of the 
folks that come to the Indianapolis Motor Speedway each year as 
part of their Memorial Day traditions.
    You know, I was also thinking a little bit about one of the 
things that makes us relatively unique is our customers. Those 
folks that buy tickets to the Indianapolis Motor Speedway come 
from all 50 States in the United States of America. They come 
from dozens of countries around the world. In fact, they bring 
media and drivers and fans of those drivers. We have several 
countries, including Venezuela, Russia, New Zealand, England, 
Australia, Japan, where our drivers come from to compete in the 
Indianapolis 500. It is truly a uniquely American event, but it 
fits very, very well inside a global motor sports scale, and it 
is the race of the year for most people with respect to motor 
sport.
    In addition to the Indianapolis 500, we host three other 
events. We host a Nascar event that takes place at the end of 
July, and we host an international motorcycle event that takes 
place in August. That event is an event that is owned by a 
Spanish company. They bring in folks from all over the world. 
We probably have more international travelers for that event 
than we do for the Indianapolis 500. So we aren't just worried 
about our mass gathering safety and security and planning for 
the Indianapolis 500 but for our other events.
    But to give you an idea of what the month of May looks like 
for those of us in Indianapolis, we kick the month of May off 
with the world's largest half-marathon that starts in downtown 
Indianapolis, roughly 40,000 runners. They actually run around 
the Indianapolis Motor Speedway and conclude back downtown in 
Indianapolis.
    The following week we host the Grand Prix of Indianapolis, 
which is the Indy cars racing on the road course that we have 
at the Indianapolis Motor Speedway. Somewhere around 50,000 to 
60,000 people attend that event.
    Then we go into practice for the Indianapolis 500, and 
leading into the Indianapolis 500 race we actually have a big 
practice and concert that hosts nearly 75,000 people on Friday. 
We have a parade in downtown Indianapolis that hosts about 
300,000 people lining the streets of Indianapolis. Then we have 
what the media report as over 300,000 people that attend the 
Indianapolis 500 when you take into consideration the folks 
that are actually inside the facility.
    So it is a big, big event, not just in our community but 
globally.
    Something that is probably of interest to this group is 
this year was the first year that we have gone from a SEAR 3 
rating to a SEAR 2 rating. So it gave us an opportunity to 
really take what we practice with respect to our local, State, 
and other officials and how we integrate with the Federal 
Government as it related to the SEAR 2 rating.
    We had a great experience this year. We started a little 
bit late. We are really looking forward to 2015 and already 
planning. But we were able to take advantage of some additional 
assets that made the event better for us with respect to some 
video camera surveillance opportunities, some helicopter 
opportunities. We had eight Homeland Security folks from 
Chicago that actually came down and helped us run our event.
    It turned out to be a seamless relationship. I was just 
mentioning a moment ago that our concern there was not the 
support that we were going to get, but we have this group of 
30-plus agencies that have worked together for several years to 
make the Indianapolis 500 what it was. We were concerned about 
adding in this new dynamic and how that was going to impact our 
ability to work together.
    We found it to be very pleasant. It worked out very well. 
Actually, I think you could talk to all of our law enforcement 
officials and really believe that this involvement of the 
Federal Government was very beneficial. As I said, we are 
looking forward to 2015 and how that is going to play out, 
given more time to look at the resources to be prepared for the 
Indianapolis 500 as we lead into 2015.
    With that said, I think what I will try to do is stay in 
touch with the committee and with Congresswoman Brooks. We will 
let you know how things are going with respect to 2015, how we 
can work together better. I think we will have more information 
for you with respect to how the Federal Government can work 
with what is a regional event on a huge, global scale, and we 
will hopefully be able to report back some good information 
there.
    [The prepared statement of Mr. Boles follows:]
                 Prepared Statement of J. Douglas Boles
                             June 23, 2014
    Chairwoman Brooks, Ranking Member McCaul, and Members of the 
subcommittee. I am pleased to appear before you today to discuss 
planning and preparation efforts for the largest single-day sporting 
event in the world, the Indianapolis 500, held annually at the Racing 
Capital of the World, the Indianapolis Motor Speedway in Speedway, 
Indiana.
    We are proud to report that Hulman & Company, the parent company of 
the Indianapolis Motor Speedway (IMS) and the Verizon INDYCAR Series, 
recently concluded a successful month of May in Indianapolis, 
culminating with the crowning of Ryan Hunter-Reay as the champion of 
the 98th Running of the Indianapolis 500.
    Annually, the Indianapolis Motor Speedway hosts four major 
automotive racing events. The most famous is the Indianapolis 500, 
which is the signature event of what we refer to as our ``Month of 
May.'' Our month features the country's largest participation half-
marathon, the OneAmerica 500 Festival Mini-Marathon; the Verizon 
INDYCAR Grand Prix of Indianapolis; two consecutive days of 
Indianapolis 500 qualifications; two major concerts that attract 
upwards of 50,000 people each; the IPL 500 Festival Parade, and the 
Indianapolis 500-Mile Race.
    Our planning and preparation is year-round and never rests, and our 
top priority is the safety and security of everyone who is in and 
around our facility. We have the highest expectations for ourselves and 
our local public safety agencies as we collectively prepare to host 
hundreds of thousands of guests each year. Our fans are passionate 
about our facility and our races, and our employees and partners are 
even more passionate about protecting our most valuable assets, those 
legions of fans that make a visit to the Indianapolis Motor Speedway in 
May an annual tradition.
    A look at our facility and some history will provide some 
perspective.
    The Indianapolis Motor Speedway was constructed in 1909, a 2.5-mile 
track that inhabits 275 acres of land inside our 1,000-acre campus. IMS 
has nearly 240,000 permanent seats covering approximately 20 acres. 
Four holes of our renowned 18-hole championship golf course, the 
Brickyard Crossing, are contained within the track oval, as is our 
museum, interior named streets, the iconic Pagoda, nearly 200 luxury 
suites, other hospitality areas, garages, and an on-site level 1-rated 
trauma medical facility (the busiest emergency room in the State of 
Indiana on the day of the Indianapolis 500).
    Together, Yankee Stadium, the Rose Bowl, Churchill Downs, the Roman 
Colosseum, and Vatican City all can fit inside the IMS oval--at the 
same time.
    The first racing surface at IMS was crushed rock and tar, not ideal 
for the inaugural automobile race in August 1909 for which 65 cars were 
entered. That fall, track owners, led by Carl Fisher, decided to accept 
the recommendation of a National paving brick organization and 
resurface the track with street-paving bricks. Over 63 days, 3.2 
million bricks--each weighing 9\1/2\ pounds, were laid on the oval 
surface, and the term ``The Brickyard'' was coined. Many of those 
bricks remain today under several layers of asphalt. Some portion of 
the bricks were maintained as a part of the racing surface until 1961, 
and even today, competitors take the checkered flag at the The Yard of 
Bricks.
    Following the first racing on the bricks in 1910, organizers 
settled on a 500-mile format over Memorial Day weekend and the 
Indianapolis 500 was born. Ray Harroun took the checkered flag in 1911 
in 6 hours and 42 minutes, driving an average speed of 74.602 miles per 
hour. By comparison, in 2013, Tony Kanaan won the Indianapolis 500 with 
an average speed of 187.433 miles per hour. Qualifying speeds regularly 
exceed 230 mph.
    The race continued until World War I forced cancellation in 1917 
and 1918, but it resumed again in 1919 and took off in popularity, and 
continued until World War II when motor racing was again brought to a 
halt. From 1942 to 1945 the track fell into disrepair and some thought 
that at the conclusion of the war, the facility would be sold to 
developers and divided for post-war housing.
    Following the War, Terre Haute, Indiana businessman Anton ``Tony'' 
Hulman, Jr., purchased the race track in 1945 and a massive undertaking 
began to get the track back in shape. Mr. Hulman embarked on a 
renovation project that brought the facility back to life, and it re-
opened for the 1946 Indianapolis 500.
    Today, IMS remains owned and operated by Hulman-George Family and 
is one of only three tracks in the United States outside the operation 
of Speedway Motorsports, Inc., or International Speedway Corporation. 
The Hulman-George Family continues to lead efforts to grow the sport of 
open wheel racing and is setting the stage for the second 100 years of 
racing at the Indianapolis Motor Speedway as the 100th running of the 
Indianapolis 500 approaches in 2016.
    IMS and the Indianapolis 500 have hosted many celebrities and 
dignitaries over the years, including Presidents Gerald Ford, Ronald 
Reagan, George H.W. Bush, and Bill Clinton, Chief Justice John Roberts, 
cabinet secretaries, and foreign ambassadors.
    IMS is set to embark on a nearly $100 million upgrade project that 
will introduce cutting-edge technology, infrastructure upgrades, and 
fan experience engagement. The last major construction project at IMS 
occurred from 1998-2000 when the current Pagoda control tower and its 
adjacent plaza, pit-side garages and road course were built. The latest 
addition to our campus will be unveiled next week when we cut the 
ribbon on a 25-acre solar farm on our property, the largest such system 
hosted at a sporting facility.
    IMS is located in the small town of Speedway, Indiana, which is 
enveloped by the city of Indianapolis. Downtown Indianapolis is located 
a mere 5 miles from the Speedway and the track is surrounded by 
neighborhoods, major traffic thoroughfares and industry, such as our 
neighbors Praxair and Allison Transmission.
    As the president of the Indianapolis Motor Speedway, I am 
responsible for all of our preparations to host on-site major sporting 
events each year. Our challenges are many; however, it would be 
impossible for us to provide a safe and secure environment for our fans 
without the public safety partners and agencies that help us coordinate 
security, crowd management, and traffic control and provide us with 
valuable intelligence.
    Although the race itself is usually run from start to finish in 
about 3 hours on the Sunday of Memorial Day Weekend, race day has begun 
long before the cannon sounds at 5:30 a.m. to mark the official opening 
of the track to spectators. The track opening begins a morning of 
pageantry that includes marching bands, recognition of all branches of 
the United States military, celebration of the rich history of IMS, the 
singing of America the Beautiful, God Bless America and Back Home Again 
in Indiana, and the famous command to drivers to ``start your 
engines,'' given by family matriarch Mari Hulman George.
    IMS counts on the expertise and manpower of the Town of Speedway 
Police and Fire Departments. Speedway Police Chief Jim Campbell and 
Speedway Fire Chief Mark Watson both have a wealth of knowledge about 
our facility and understand our unique needs.
    Our list of partners is long, but each is an important component of 
our public safety plan:
  <bullet> Town of Speedway Police and Fire Departments
  <bullet> Indianapolis Metropolitan Police Department
  <bullet> Marion County Sheriff's Office
  <bullet> Indiana State Police
  <bullet> Indiana State Excise Police
  <bullet> Indiana National Guard
  <bullet> Indiana University Health
  <bullet> Federal Bureau of Investigation
  <bullet> United States Secret Service
  <bullet> Transportation Security Administration
  <bullet> Federal Aviation Administration
  <bullet> U.S. Department of Homeland Security
  <bullet> National Weather Service
    During May, IMS depends heavily on the support of public safety 
agencies, all leading to the Indianapolis 500 race day, when 800 public 
safety personnel are on site by 6 a.m. In addition, IMS employs more 
than 1,600 people responsible for parking operations, ticket/gate 
entrance, guest services, grandstands, spectator mounds, and 
subcontracted security.
    For the first time in 2014, the Indianapolis 500 was designated as 
a Special Event Assessment Rating II. The SEAR rating previously was 
III but was changed following the scrutiny of large events after the 
2013 Boston Marathon tragedy.
    In this initial year of SEAR II rating, we became more acquainted 
with resources that are now available to us to assist with the ingress 
and egress of hundreds of thousands of people in a 12-hour period. This 
year, IMS was assigned a Federal agent from the U.S. Department of 
Homeland Security, who provided us with important real-time feedback, 
additional security cameras, and the use of two helicopters for traffic 
control as well as aerial security coverage.
    Now that we are developing relationships with the Federal SEAR II 
team, we will be better-prepared with additional expertise and more 
knowledge in the years ahead.
    On race day, we operate from four command centers: Our primary 
center in the track infield, two outside and one on stand-by as a back-
up. We use a Unified Command system associated with the National 
Incident Management System in each of the centers.
    A formal chain of command is established and known to all. For IMS, 
the center is manned by the senior director of operations, director of 
engineering and construction, and representatives of security, traffic, 
gates, parking, garages and pits, stands and mounds, guest services, 
medical, and weather. The police command includes representatives from 
local and State police agencies.
    IMS also has a sophisticated and extensive public address system, 
which is attached to multiple large screen video displays located 
throughout the facility. The system not only provides audio and video 
race information but has the ability to communicate any emergency 
notifications. The public address booth and video control room are 
located in the primary command center. This gives the unified command 
the ability to provide up-to-the-minute information about any situation 
warranted.
    IMS was one of the first venues in the country to implement the 
Department of Homeland Security's ``See Something, Say Something'' 
campaign including a visit from Secretary Janet Napolitano to kick off 
the program in 2011. Posters are located throughout IMS and two INDYCAR 
drivers recorded a video campaign that aired on-site during the month 
of May. We credit the program for an increase in the number of reports 
of suspicious activities and packages we receive from fans.
    In 2015, IMS will add a new texting system to improve real-time 
interaction with our customers. The system will allow fans to text 
questions, comments, or emergency information to the command center, 
and IMS will react and respond accordingly.
    Our primary command center is operational 24 hours a day, 7 days a 
week beginning a week before the official opening of the Indianapolis 
Motor Speedway in May and closes several days after the Indianapolis 
500. We operate the same system for our other major racing events.
    Our planning for security and related matters is year-round. 
Monthly meetings to plan for 2015 have already begun with 
representatives from public safety agencies and will continue 
throughout the year. As a part of our year-round planning, staff is in 
regular contact by phone, email, and texts with several members of 
public safety agencies to maintain the dialogue about our events and 
other events taking place in central Indiana.
    By March of each year, our planning sessions become devoted to 
specific topics, including executive protection, intelligence, gang 
control, crowd management, and parking. In April, we conduct a table-
top security exercise and begin on-site training to expose public 
safety officials and track personnel not only to the sheer physical 
size of IMS but to handle specific situations.
    Emergency preparedness involves many scenarios, including in-venue 
non-terrorist events, such as a grandstand collapse or fire, as well as 
preparation for a terrorist threat and, of course, training to deal 
with on-track incidents.
    When the calendar reaches May, staff and partners at IMS are in 
full event mode. There are regular and unscheduled updates from Federal 
officials when information and intelligence warrants. Daily operational 
meetings with and without law enforcement are conducted and daily 
operations movements are outlined to orchestrate the daily schedule of 
activities.
    Following each major event, IMS meets with its public safety 
partners to complete an after-action report that includes written 
reports about opportunities for improvement for future events. The 
operations team at IMS uses the report to make future planning 
decisions.
    Over decades of hosting successful race events, we've learned that 
building and maintaining relationships on all levels is a key to 
success. We ask a lot of our public safety partners--sometimes too much 
of them. We also try to be a good partner by providing meeting space 
and access to train on our grounds to help meet our needs.
    Public safety officials at local, State, and Federal levels know, 
understand, and buy in to the Indianapolis Motor Speedway and its 
importance to the city, the State of Indiana, and racing fans from 
around the world. Only with them can we continue to host The Greatest 
Spectacle in Racing.
    We look forward to working with this committee to assist in any way 
we can with information that is helpful in local and Federal 
coordination of large-scale events.

    Mrs. Brooks. Thank you, Mr. Boles.
    The Chairwoman now recognizes Dr. Roberts to testify for 5 
minutes. Thank you.

STATEMENT OF FRED S. ROBERTS, DIRECTOR, DEPARTMENT OF HOMELAND 
      SECURITY CENTER OF EXCELLENCE, COMMAND CONTROL AND 
  INTEROPERABILITY CENTER FOR ADVANCED DATA ANALYSIS, RUTGERS 
                           UNIVERSITY

    Mr. Roberts. So, thank you, Congresswoman Brooks and 
Congressman Payne and Congressman Pascrell, for your leadership 
not only on this topic but also on all aspects of homeland 
security.
    It is an honor for me to be invited to testify before this 
committee. As Mr. Payne noted, I am a professor, a professor of 
mathematics, in fact, at Rutgers University. I direct the 
Command, Control, and Interoperability Center for Advanced Data 
Analysis. That is a mouthful. We call it CCICADA in short. 
CCICADA was founded as a Department of Homeland Security 
University Center of Excellence.
    So we are based at Rutgers, but like the rest of the 
university centers, we are a network. So we have partners all 
around the country, and, in particular, as Congresswoman Brooks 
has mentioned, we are delighted to partner with our sister 
center at Purdue. They deal with visual analytics. They have 
done some remarkable work on visualizing data and gaining 
understanding from visualization.
    So, we work on modeling, we work on simulation, we work on 
helping make decisions, and we work on all aspects of homeland 
security that are data-related. So I would like to take a 
moment to say that DHS has been a strong supporter of our work 
on stadium security, and it is only really through DHS support 
that we have developed real expertise in this area.
    We are still learning, and many of the people that you have 
heard from are the kinds of people we have learned from. We 
certainly could never have developed the skill and expertise 
that we have without the support of DHS Office of University 
Programs.
    So our work on stadiums commenced in 2010 when we worked on 
simulation of how to evacuate a stadium. We worked on that in 
part with the private sector, with our partner Regal Decision 
Systems. The evacuation tool that was developed actually was 
implemented when MetLife was opened, very shortly thereafter, 
with an evacuation required because of a lightning storm. It 
turned out that the evacuation planning and model actually 
helped with that evacuation.
    So we have now, because of our work on stadium security, 
interacted with all major sports leagues, as well as college 
and minor sports leagues, minor leagues, and I will come back 
to that observation. We have also studied safety at other large 
gathering places--malls, bus terminals, amusement parks, and so 
on. So certainly those places are attractive targets for 
criminals and terrorists, and increasingly more so as targets 
such as the Pentagon or the U.S. Capitol are hardened.
    We began to collaborate with stadiums on patron screening, 
and we eventually developed a tool that enables the stadiums to 
determine which types of inspection might work best in their 
environment, taking into account how many patrons you expect, 
the type of event, the weather conditions, amount of time each 
inspection process takes. Because of the success of that tool, 
I as an academic was actually out in California last week to 
give a presentation to the NFL's meeting of stadiums and venues 
security directors.
    We have also worked on crowd management and prevention of 
human trafficking, starting with the Indianapolis Super Bowl.
    I have also had the opportunity to work with the DHS Office 
of SAFETY Act Implementation. We were asked to develop a best 
practices manual for stadium security that would both be useful 
to the Office as a tool to evaluate applications from stadiums 
for SAFETY Act designation or certification, but also to use as 
a tool in preparing applications if you were a stadium or a 
venue. So as part of the process of developing that manual, we 
did an extensive literature search, we visited venues, held 
interviews, and actually had a nice workshop at Rutgers Stadium 
in 2013 on this topic.
    So we are now working with the Office to develop new 
measures of effectiveness and ways of testing the effectiveness 
of security plans, and they have asked us to work on economics 
of stadium security as well as randomization techniques to look 
at screening and credentialing.
    So I just wanted to mention a few examples to the extent I 
have time of the things we have observed that were a little bit 
of a surprise both to us and to the security folks we have 
talked to.
    We have talked already about cyber here. Everybody knows 
that cyber is an important issue. What a lot of people don't 
understand is that today's modern automobile is a collection of 
physical systems that are run by computers, and they are 
becoming semi-autonomous already, and it may be that one day 
soon we will have driverless cars.
    We already know how to hack into a car and control its 
braking and steering and acceleration, and one of my scenarios 
that I worry about is somebody doing that in the parking lot of 
a major event.
    Magnetometers, walk-through magnetometers, another major 
issue. The stadiums are very interested in and the NFL has 
asked the stadiums to look into the implementation of walk-
throughs. There are a lot of interesting issues there, 
including how well they will work outside in bad weather, 
issues as to whether you should put them on wheels and put them 
out of the way in case you have an evacuation problem, issues 
as to how much they cost and how many you need, and how many 
stadiums can afford them, and should a stadium in fact get some 
incentive or management get some incentive for implementing the 
latest and the best security devices.
    Food security is an issue that not many people are very 
aware of. Something as simple as not putting out mustard and 
ketchup in these big dispensers, which could easily be tampered 
with, and putting out little condiment packages is just one 
little piece of food security that we have learned about.
    Information about the physical facilities at a stadium is 
often part of the public record after a new stadium is built is 
that of vulnerability we have to worry about.
    Background checks for employees, we have heard about that. 
We do credential checking for stadium employees, but repeat 
background checks are not done so regularly. They are 
expensive. Again, there is the issue of how you get them done. 
But are there possibly randomization techniques that might 
allow us to do this occasionally for some of the employees?
    Emergency plans, are they given to all the employees? If 
so, when they leave the employ, do they go with them? Is there 
control over them?
    So as I said, I work in all kinds of venues. Some of them 
are very impressive. The big ones have gotten SAFETY Act 
certification or designation. That, then, leads you to look at 
venues that are not as well off as the Yankees and MetLife 
folks and so on.
    So just as the Capitol and the Pentagon have been hardened, 
and that has led us to the major stadiums, the major stadiums, 
as they get hardened, lead us to look at minor leagues. That, I 
think, is an issue where, if something happens at a minor 
league stadium, it is going to have a major impact on the 
United States and on the major sports leagues. So it is an area 
where we need to be aware.
    Finally, let me talk about the Boston Marathon. We have had 
that mentioned. The difficulty of protecting crowds that gather 
for events where there is no natural access control point is a 
serious issue. We have looked--this past week New Jersey was 
honored to host the USA Special Olympics, the third Special 
Olympics we have had in this country. We had our students out 
observing.
    It is hard to control access at Mercer County Park where 
the soccer and the tennis and the softball were played, very 
much similar to the kinds of problems we faced with the Boston 
Marathon. We will be working on the after-action report with 
the Special Olympics. We had discussion about how you get it to 
the next group that is going to be running an event of this 
sort. Lots of difficult issues that emanate from such events, 
and this was not a done deal.
    In closing, there are certainly a lot of opportunities for 
us to collaborate--private sector, academics, public sector. We 
in academics stand ready to hopefully play a role. So, thank 
you, and I will be happy to answer any questions.
    [The prepared statement of Mr. Roberts follows:]
                 Prepared Statement of Fred S. Roberts
                             June 23, 2014
    My name is Fred Roberts. I am a professor of mathematics at Rutgers 
University in Piscataway, NJ and I am director of the Command, Control, 
and Interoperability Center for Advanced Data Analysis (CCICADA). 
CCICADA was founded as a Department of Homeland Security University 
Center of Excellence, is based at Rutgers, and has 16 partner 
institutions across the United States. It is part of the network of 
Centers of Excellence created by the DHS Office of University Programs. 
CCICADA's work is based on data analysis and we work on modeling, 
simulation, and decision support. We work with many Federal, State, 
regional, and local government agencies and with the private sector.
    DHS has been a strong supporter of CCICADA's work on stadium 
security. Through the DHS university programs support, we feel that we 
have developed a real expertise in this area, one we could never have 
developed without DHS University programs. This work commenced in 2010 
when we worked on simulation of stadium evacuation in collaboration 
with one of our private-sector partners, Regal Decision Systems. 
Regal's evacuation tool helped half a dozen stadiums plan evacuations 
and was instrumental in allowing MetLife Stadium in New Jersey to 
evacuate safely during a preseason game in its first year of operation 
when there was a lightning storm.
    Work on stadium evacuation has led us to collaborate with all major 
sports leagues, as well as college and minor league sports, and also to 
study safety and security at malls, bus and rail terminals, amusement 
parks, and other places where people gather. These gathering places are 
attractive targets for terrorists and criminals, and increasingly more 
so as such iconic targets as the Pentagon and the Capitol are 
``hardened.''
    Based on our early work on stadium evacuation, we began to 
collaborate with stadiums on patron screening procedures and eventually 
developed a tool that enables stadiums to determine which types of 
inspection (wanding, pat-downs, bag inspections, walk-through 
magnetometers) will work best in their environment, taking into account 
the number of patrons expected, the weather conditions, the amount of 
time each type of inspection takes, etc. Because of the initial success 
of this tool, I was asked to present it to the National Football 
League's security seminar last week, a meeting attended by security 
directors of stadiums and venues all across the NFL.
    We have also worked on models of crowd management and on prevention 
of human trafficking at major sports events such as the Super Bowl.
    In 2012, CCICADA was asked by the DHS Office of SAFETY Act 
Implementation to develop a ``Best Practices Manual'' for stadium 
security from a counter-terrorism point of view. This manual, delivered 
in July 2013, was meant for OSAI to use as a tool to evaluate 
applications from stadiums for SAFETY Act designation or certification, 
and for stadiums to use as a tool in preparing their applications. As 
part of the process of developing that manual, we did an extensive 
literature review and held interviews with and visited venues from all 
major sports leagues, as well as college and minor leagues. We also 
held a workshop on stadium security at Rutgers in 2013. We are now 
working on additional aspects of stadium security for OSAI, expanding 
on our earlier work, to develop metrics, measures of effectiveness, and 
good ways to test for training. OSAI would also like us to work on the 
economics of stadium security and on the use of randomization in 
screening, credentialing, and other aspects of stadium security.
    Our work has led us to some observations that were a surprise not 
only to us but to a number of the security experts we interacted with. 
Here are a few examples.
    Increasingly, physical systems are run by cyber systems. In our 
modern stadiums, this is true of heating and air conditioning, message 
boards (including for emergency messages), access control within the 
facility, escalators and elevators. But these systems can fail due to 
deliberate action of others. Thus, cybersecurity in our Nation's 
stadiums is a major concern. At Super Bowl XLVII in New Orleans, the 
lights suddenly went out. My first reaction was that this was a cyber 
attack. Fortunately I was wrong. However, it was a warning sign.
    While a great deal of attention has been paid to hardening access 
to a stadium, the exterior of the stadium becomes a softer target. 
Today's modern automobile is a good example of a collection of physical 
systems that are increasingly run by cyber systems. Modern cars are 
already semi-autonomous and there is work being done on totally 
driverless cars. We have already seen that it is possible to hack into 
a modern car and control its braking, acceleration, steering, etc. What 
would happen if someone hacked into a car in the busy parking lot when 
thousands of people are packed together tailgating?
    There is a great deal of consensus that walk-through magnetometers 
are more effective in detecting dangerous materials than other 
screening systems such as wanding or pat-down. Yet, there are issues 
that need to be resolved about magnetometers. Early evidence seems to 
be that they might not work so well in bad weather, especially wind. 
Also, so that they don't block the way in case of the need to evacuate, 
at least one stadium has experimented with putting them on wheels. But 
does this affect their accuracy? Magnetometers also involve a major 
capital expense for a venue and because they require much more space 
than wanding or pat-down, might even require a stadium to give up some 
of its parking lot to make room for them. What incentives are there for 
management to do this?
    Food security is an issue addressed with widely varying degrees of 
effectiveness and thoroughness at our Nation's stadiums. Effective 
measures can be as simple as putting out condiments in packets, rather 
than large dispensers that make targets of opportunity for chemical or 
biological agents. However, not all stadiums are well-versed in food 
security.
    Information about the physical facilities at a stadium is often 
available to the public, e.g., when new building plans are filed. This 
could be a serious vulnerability.
    Background checks for employees are a key component of a stadium 
security plan. But it is very difficult to find out about changes in 
background after an employee has been hired. How does one find out 
about new problems with the law, for example? Could repeat of 
background checks be required? They are expensive, and one possible 
model might be to perform them randomly from time to time.
    Domestic violence/workplace violence are issues for stadiums. 
Disgruntled spouses and others can be a problem. Does the stadium 
obtain information about restraining orders that employees are served? 
Should it be easier to obtain such information than it is now?
    Do employees receive a copy of an emergency plan? Are they required 
to return it when they leave employment? Do they receive it 
electronically and, if so, how can we be sure they do not make and/or 
maintain a copy?
    As I said, our work has taken us to all kinds of venues. Several, 
such as Yankee Stadium, MetLife Stadium, Citi Field, have already 
received SAFETY act designation or certification. Achieving such status 
reflects the professionalism and extensive emphasis on security at 
these venues. However, less well-off owners of venues and sports 
franchises do not have the resources to invest in security in the way 
that these large and highly successful examples do, and this is even 
more the case for minor league venues. Just as ``hardening'' of the 
Pentagon and U.S. Capitol and other iconic targets can direct the 
attention of terrorists to iconic sports stadiums, hardening of those 
stadiums can direct the attention of terrorists to sports venues that 
are less secure. If the object is to disrupt the enjoyment of our 
gathering places, and create terror, an attack at a minor league venue 
could have a significant impact.
    The events at the Boston Marathon demonstrate the difficulty of 
protecting large crowds that gather for events where there is no 
natural access control. Last week our students and faculty were 
official security observers at the USA Special Olympics in New Jersey, 
where some of the venues had similar issues of access control, and we 
will be helping the Special Olympics management write an After-Action 
Report that will inform the next organizers of this important event. We 
have already learned from the Boston Marathon to take measures at our 
stadiums where access control is possible to set up perimeters so as to 
minimize the possibility that screening procedures themselves will 
create vulnerabilities by creating long lines of people in a small 
space. However, Boston-type vulnerabilities exist in the areas outside 
the stadium screening areas.
    It is not possible to protect people in large gathering places from 
all hazards, especially in an open society such as ours. However, with 
appropriate research, with true partnerships among Government, the 
private sector, and even those of us in academics, the risk can 
hopefully be reduced.

    Mrs. Brooks. Thank you. As a true academic, you have caused 
us all to think about some things that maybe we hadn't 
completely thought about.
    With that, I would like to turn it over to Congressman 
Pascrell, who can only be with us a short time longer.
    Mr. Pascrell. Thank you very much. I appreciate that.
    Dr. Roberts, you brought up a lot of things that we hadn't 
gotten into today and are very critical. You are looking to the 
future, and I think that is very, very important.
    Every day, every day our enemies probe our systems, every 
day, not every other day, every day. So we can't have a crisis-
oriented strategy. This is every day of the year, and it is 
important to me and everybody on the panel, and it is important 
to you, I know. I thank you for your work.
    I thank you all for coming here today.
    This is a question I have. I was going to get into the cost 
of this, who picks up the cost, but I will follow up another 
avenue perhaps another time.
    Dan, it is always good to see you. You do a great job at 
the Meadowlands. You have always done a good job.
    Any of you--Mr. Grossi, Mr. DeLorenzi, Mr. Boles, Dr. 
Roberts--what do you think has to change in order for us to 
have a better coordinated or the best coordinated system for 
our large events, our mass events; and, as Dr. Roberts says, 
smaller events too? Because terrorists look for the least 
likely place, and we have to understand that.
    Mr. Grossi.
    Mr. Grossi. I think the level of cooperation and the in-
person meetings, just the simple human dynamics of getting to 
know everyone. That is what we do at the NFL. We start working 
year out. We don't come into the Super Bowl city in December 
and expect to get everything done in January and have the game 
in early February.
    We come in, we establish relationships with law 
enforcement, with all the public safety groups, with the 
stadiums, and I think it is going forward the relationships 
that we build and nurture throughout the year that, when it 
comes time for the game on Super Bowl Sunday, everybody is 
ready and everybody is communicating and everybody knows 
exactly what their role is.
    Mr. Pascrell. Just one yes or no. Do you have the resources 
to do the job to protect the American people at the events 
pertaining to the National Football League? Do you have the 
resources?
    Mr. Grossi. Absolutely.
    Mr. Pascrell. Thank you.
    Mr. Grossi. Yes, sir.
    Mr. Pascrell. Dan, what would you change?
    Mr. DeLorenzi. I think it has changed already. I think in 
the old days, I will say the '80s, the '90s, prior to 9/11, as 
a police chief here in the city of Newark, there was a lot of 
siloed decision making with the Fire Department, the Police 
Department, and the EMS were left out a lot of times.
    I think a lot of that has changed. In fact, probably most 
of it has changed, and that is good news, and I think the 
public should know that. Everyone has an equal voice. The Fire 
Department was at the Super Bowl, and it made me feel better 
knowing they were there. It makes me feel better knowing that 
EMS has a mass casualty plan. I think the Lieutenant Colonel 
said you step aside and you let them do what they are supposed 
to do.
    The whole unified command structure, that is a standard 
decision-making process across the country, and everyone has 
bought into that too, where there is no one boss. Typically, 
the police were the boss in the old days. That has gone away. A 
smart police commander will know that if it is a fire decision, 
the fire commander will make the decision. If it is a medical 
decision, EMS. So that whole incident command system has taken 
hold. We use it for every event. We use it for the Super Bowl, 
and it works.
    Again, that is part of the post-9/11 NIMS. The National 
system for coordination and decision making, I can assure you, 
has taken hold.
    Mr. Pascrell. Thank you.
    Mr. Boles.
    Mr. Boles. Congresswoman Brooks and I had an opportunity to 
talk this morning, and I think this is kind-of important with 
respect to your question. We at the Indianapolis Motor Speedway 
own also the Verizon Indy Car Series which produces Indy Car 
races throughout the country, and we are able to go in and talk 
to some of our promoters inside different communities and help 
them to actually prepare to put on an event, but also with 
respect to working with their law enforcement agencies and how 
to prepare for those mass gathering events.
    I think one of the things we probably don't do very well at 
is how do we take the learnings that we have as the 
Indianapolis Motor Speedway and the Verizon Indy Car Series and 
then begin to work with other folks like the NFL, like the NBA, 
like the NCAA. Being in Indianapolis, we have the benefit of 
hosting the Final Four, having hosted a Super Bowl. So there 
are a lot of resources there that we can take advantage of. But 
certainly Nationally, I am sure there are several things that 
took place during the 48th Super Bowl that we could learn as an 
organization to make the Indianapolis Motor Speedway and our 
events, as well as the Verizon Indy Car Series.
    So I think it might be helpful to have a mechanism for us 
to communicate across sports, across mass gathering type of 
events, and maybe that is something that Dr. Roberts, who is 
beginning to gather that, is there a place we could learn. His 
testimony alone gives me great pause to start thinking about 
things we need to be prepared for.
    So I think it is just maybe taking that communication that 
we all feel we are doing well at an incident level or at an 
event level, and then how do we learn from others so that we 
can raise the tide for all of us.
    Mr. Pascrell. Very good.
    What do you think of that, Dr. Roberts?
    Mr. Roberts. So I think, first of all, to step back, as a 
relative newcomer to this type of planning and preparation and 
so on, I have been amazed and impressed with what the stadium 
folks do. A lot of it comes from sharing information. So 
information sharing really is a key to this whole thing, I 
think, for us to learn from what others do and for us to 
improve what we do.
    I would like in particular to mention what we do here in 
New Jersey. The New Jersey Office of Homeland Security and 
Preparedness, which is really a leader in stadium security and 
large gathering security, has quarterly sports and large 
gathering security meetings, and those are very impressive. 
They share information. They share best practices. They 
introduce the folks who maybe don't have the resources that the 
larger groups do to the things the larger groups are doing and 
so on.
    That does lead to another idea which has come up in some of 
our discussions which is maybe a little bit off the wall, and 
that is sharing of equipment and sharing of software which runs 
with certain vulnerabilities, but it is something that we have 
talked about and whether that is a possibility.
    Finally, I think the kind of thing that the Office of 
SAFETY Act Implementation has had us do, which is develop best 
practices manuals; and hopefully, eventually, when their 
lawyers get done with our manual, it will be given wide-spread 
circulation. I think that that is a key.
    Mr. Pascrell. Thank you very much.
    Thanks to the panel.
    Thank you, Madam Chairlady. I appreciate that.
    Thank you, Donald, and good luck for the rest of the 
hearing.
    I am sorry I have to leave.
    Mrs. Brooks. No, and thank you, Congressman Pascrell, for 
joining us. We very much appreciate it. We wish you were on our 
subcommittee. You are welcome to join us at any time at any of 
our hearings. Terrific questions and terrific support for our 
efforts. Thank you.
    At this time, I will turn it over to my Ranking Member, 
Congressman Payne, for 5 minutes of questioning.
    Mr. Payne. Thank you.
    Mr. Grossi, as you observed in your testimony, each Super 
Bowl is unique. Can you talk about how you adapt security 
operations to address the needs and vulnerabilities in each 
host city?
    Mr. Grossi. Yes. As I said, our planning starts about a 
year out. Again, the configuration of stadiums, stadium 
locations, they are all different. As Colonel Cetnar alluded to 
earlier in his testimony, he talked about Indianapolis and New 
Orleans, which both Super Bowl sites were in a downtown area. 
At MetLife, we had the luxury of having a surrounding area, 
acres and acres of open area and parking lots which, quite 
frankly, makes it easier to secure. We put up a 300-foot hard 
perimeter, and we established our perimeter a week out.
    In New Orleans and in Indianapolis, we didn't have that 
luxury of establishing the perimeter for a week because of 
major roads and thoroughfares which would have been an impact 
to traffic and to people coming in and out of New Orleans and 
Indianapolis. So we modified our plan. We had a partial 
lockdown throughout the week, and then Friday morning we went 
into the hard lockdown that we normally do on the previous 
Monday.
    So we adapt for each stadium based on its location and the 
individual characteristics of that stadium.
    Mr. Payne. Thank you.
    To follow up, having adequate and timely information on 
security threats is critical to your ability to keep the 
players, performers, and spectators at a mass gathering safe. 
What can you tell us about DHS' responses with respect to your 
informational needs? How have you seen your feedback on 
intelligence products incorporated into the Department's 
private-sector information-sharing process?
    Let's start with Mr. Boles.
    Mr. Boles. This year really was the first year we had an 
opportunity to work directly with DHS. We had a relationship 
with the FBI for several years, and we found that the 
communication from both organizations has been very good, 
flowing in both directions. So with respect to any potential 
threats or any conversation in and around our events, we have 
been able to have an open line of communication. We feel like 
that has been very helpful.
    As I said, with respect to the DHS and the SEAR 2 level 
increase for us this year, that was very beneficial for us. One 
of the places that we really felt like we needed some help was 
in being able to monitor our external ingress and egress from 
the facility, monitor our perimeters, and we were able to 
secure some additional video cameras to help us monitor that. 
We, similar to MetLife Stadium, have a control command area 
where all of the agencies sit together, face each other, are 
able to talk. We have all the video boards where they can watch 
that. We also have two external command centers as well, so 
that there are three of them in operations. But the one main 
one allows our folks to talk. Department of Homeland Security 
was there, so we had up-to-the-minute information to the extent 
that we needed it in and around our event.
    So I think as we go forward and we build that relationship, 
I think that is just going to get better for us, and it is just 
going to make it better for our participants and for our 
customers and those folks that visit the Speedway.
    Mr. Payne. Thank you.
    Mr. DeLorenzi.
    Mr. DeLorenzi. One of the things I am proud to say, we have 
a great relationship with DHS Science and Technology. In fact, 
we spent the last 2 or 3 years participating in the SAFETY Act 
accreditation process, and in December we were fortunate enough 
to be the first NFL stadium that is SAFETY Act certified. A lot 
of people think SAFETY Act certified applies to a technology, 
and that was its original intent. But our application was 
basically a several-hundred-page application that came down to 
a thesis paper on how MetLife Stadium acts as a homeland 
security system, a multi-layered system starting with the 
parking lots and the people, the training, the technology, the 
procedures. All of that is wrapped up in this application.
    It was important to me to have this accreditation from DHS. 
I saw it as a validation of everything that we are doing, and 
having someone from the caliber of the people they have in 
Science and Technology look at it and say, yes, you are doing a 
great job, you are SAFETY Act certified, and we were able to 
attain that.
    Mr. Payne. Thank you.
    Mr. Grossi.
    Mr. Grossi. Again, working with the stadiums, it is our 
goal--and to Danny's credit, he worked hard on the SAFETY Act 
accreditation, and that is our goal. Eventually, most NFL 
stadiums will be accredited under the SAFETY Act.
    Mr. Payne. Okay, thank you.
    Madam Chairwoman, I yield back.
    Mrs. Brooks. I now recognize myself for 5 minutes of 
questioning.
    We haven't talked a huge amount about the concerns about 
cyber attacks. With so much of our world counting on technology 
and the cyber world, I would like to just ask the organizations 
how you prevent and protect against a cyber attack. Whether it 
is the Super Bowl or games or the Motor Speedway, it is 
something that we in Congress are very, very focused on, 
working with the private sector and the public sector. But it 
is of grave concern to us.
    So, Mr. Boles, I might start with you.
    Mr. Boles. With respect to how we communicate to our fans 
in particular, we do rely heavily on text messaging. We rely 
heavily on the communication that the law enforcement agencies 
have with each other. We have basically a television production 
studio that sits just outside of the pagoda command where all 
of our law enforcement are gathered, and that is one of the 
best ways to communicate to our 300,000-plus fans inside the 
venue, through radio communications, through video board 
communications.
    So from our standpoint, the cyber communication protection 
of that is important because that is how we will be able to 
deliver messages to our folks in the event that something 
happens. We have an IT department that is there all year that 
is beginning to pay attention to those. Cyber attacks with 
respect to events like ours are relatively new, and we are 
looking forward to information from folks like Dr. Roberts on 
how we can better prepare for those type of items.
    With respect to our parking lots and cars and the 
technology of those things, those are certainly things that we 
will put on our radar screen to begin to understand. But 
especially as we lean towards technology as a way to 
communicate evacuation plans or weather information or things 
we believe are important to our folks in the seat, it is 
important that we are able to protect the integrity of those 
systems that deliver it, and we have full-time staff to do 
that, as well as consultants to help us try to understand that.
    Mrs. Brooks. Thank you.
    Mr. DeLorenzi, I assume with getting a SAFETY Act 
designation--and congratulations for that--that certainly your 
protection against cyber attacks must be part of that.
    Mr. DeLorenzi. Yes.
    Mrs. Brooks. Can you share with us what you can?
    Mr. DeLorenzi. Yes. We had three different groups of 
experts come into the stadium and assess. You know, 
cybersecurity does come down to physical things that are in 
place, right? Firewalls and such. We had three different expert 
groups come in and do individual assessments of our different 
systems, and I think that is the best way to do it. You can sit 
there and talk about things and IT people--yes, I have that and 
I have this--but until they come in and actually see it and do 
a physical assessment and inspection, that is when they can get 
the assurance.
    We had them done by the FBI. We had them done by the New 
Jersey State Police and DHS. I will say that there were a 
couple of things uncovered and fixed in all those instances.
    We also get--and it just happened yesterday. The Rock put 
out something on malware, because there are always new things 
coming. There are always new viruses and malware that is out 
there. I get those emails as a security director. I immediately 
forward that to our chief technology officer and he gets it, 
and that has to happen. I just can't sit on that and say it is 
not my responsibility. I have to let him know that these things 
are out there, and he appreciates it. So again, that is another 
way we stay up on cyber technology. We wait for intelligence, 
and then we act on it.
    Mr. Grossi. We at the NFL, in the NFL IT department, we 
have a director position who is responsible for cybersecurity 
throughout the NFL. As with the Indy 500, we have a cross-
communication plan. When you purchase your Super Bowl ticket, 
you can log in and receive and send text messages that we blast 
out information that is relevant to the game, relevant to 
events around the game, and we can receive information from 
these 70,000 or 80,000-plus fans that are in the city when they 
see something.
    The physical security of the cyber part of Super Bowl is 
really done by the stadium where we are playing the game, and 
we lean heavily on the FBI and the Department of Homeland 
Security. They come in and assess our cyber capabilities and 
our vulnerabilities, and we try to make the adjustments from 
there.
    Mrs. Brooks. Thank you.
    Very briefly, Dr. Roberts, any comments you might have 
about what you have seen with stadiums you have worked with in 
cyber?
    Mr. Roberts. Well, first of all, we have seen, at least in 
the last few years, a significant change in just the awareness 
that cyber is a serious issue. A few years ago when I 
interviewed some folks at a major NBA arena, they didn't even 
know that there were apps out there for the patrons, and they 
never connected the way to use the security folks connected 
with the fan folks. So that has changed.
    The one thing I think I would mention is that the key to a 
lot of this is education. We have been just doing a project for 
DHS S&T on cybersecurity education and training, and certainly 
I think it is fair to say that 80 to 90 percent of cyber 
attacks could be prevented if everybody were just educated on 
what not to open and what attachments not to look at, and so on 
and so forth. There are some basic principles.
    I think we have already seen it, both in the sports 
industry and many agencies around the country, that there is an 
increasing interest in education and training. That comes down 
ultimately to a long-term plan for how to educate and train 
folks in cyber. I know there are estimates that we may be short 
700,000 cybersecurity experts within 5 years. So it is not just 
a stadium problem, but it certainly is one.
    Mrs. Brooks. Thank you.
    I will now turn to Congressman Payne for another 5 minutes 
of questioning.
    Mr. Payne. Thank you, Madam Chairwoman.
    Dr. Roberts, you know that the CCICADA Center works on 
models of crowd management and on prevention of human 
trafficking at major sports events such as the Super Bowl. Can 
you talk about how CCICADA has worked with MetLife Stadium to 
improve security for mass gatherings such as the Super Bowl? 
How has your work been integrated into security plans?
    Mr. Roberts. So, we have been welcomed at MetLife. Mr. 
DeLorenzi has given us, first of all, access to his own 
personal expertise. We have been allowed to follow him around 
on game days and preparation for game days. We have been given 
access to the command center. We have been given access to the 
stadium to observe the screening procedures, and we have been 
in on some of the discussions about how to change things.
    So just by way of an example, with the implementation of 
the magnetometers, we did a little bit of modeling to help 
MetLife decide how many they might need and what kind of 
physical changes might be necessary, and then most recently 
there was the first experiment with the new magnetometer system 
just this month at a soccer game between Portugal and Ireland.
    I guess I shouldn't mention Portugal today.
    [Laughter.]
    Mr. Roberts. We were there at MetLife discussing how many 
you might need--it was not the full crowd; it was around 
50,000--how you might arrange the tables and the screeners and 
who would stand where, and whose role would be what, and then 
we were there on game day. We took notes. We gathered a lot of 
data as to how long each of the lines would take. We compared 
it to the other gates which did the normal screening, and we 
are still processing that data. We shared some of it. We will 
share some of the rest of it, and I am sure that will lead to 
changes again. In fact, it already has led to some ideas as to 
how to involve randomization procedures.
    Mr. Payne. Thank you.
    Mr. Roberts. So working closely with the stadium has really 
been--it is a win for us, and I believe the stadium has also 
appreciated what we have done.
    Mr. Payne. Excellent.
    Mr. Boles. As far as the modeling, the computer simulation, 
I will tell you how we use it, how we have used it to learn how 
to evacuate the stadium. Evacuating the stadium is the common 
denominator across any emergency, right? It is one of the 
things I worry about the most. I guess similar to 9/11 is 
getting people out of the building, and we are talking about 
80,000 people. So I impress upon my staff that that is their 
role. We have a certain amount of police officers, amount of 
firemen, EMS, and they are going to be busy dealing with 
whatever emergency has created the evacuation scenario, and it 
is going to be left to us to get the people out of the 
building.
    Prior to getting this modeling tool of evacuation, it is 
interesting, everybody in this room would probably have a 
different thought in their head as to what that might look like 
and how it might go, and how long it might take. Because we 
live in a time now where we can do simulations, computer 
simulations, we sat down with the Rutgers folks, DHS S&T and 
this company Regal, and we developed a model, and the model is 
all 80,000 people in their seats and how long it would take and 
what it would look like for these people to leave all at once, 
and we use it as a training tool for our civilian personnel. 
They sit there and they look at it and say, listen, it is no 
longer your imagination, this is what it is going to look like 
and this is how long it is going to take, and you need to make 
sure it happens.
    They understand that, and it helps a lot. It also gave us--
I won't discuss the times, but it tells us exactly how long it 
will take. It tells us how to do it, and not only for 
evacuation. Dr. Roberts said this earlier. It taught us how to 
bring people inside out of a severe lightning situation and 
where to put people and how to move people, and again, all 
done--we see this all the time on CNN. You can really simulate 
any situation on a computer now. It was some technology that 
was very, very useful. We are lucky to have it.
    Mr. Payne. Madam Chairwoman, in the interest of time, I 
will yield back.
    Mrs. Brooks. Thank you.
    I think this might be a good question to wrap up with 
because we have heard just amazing things that you all are 
doing in leading your organizations, and obviously the studies 
being done by Rutgers and Purdue and others. But I worry--and 
we heard this at our hearing last week in Washington, DC--how 
we could do a better job sharing these best practices, the 
wonderful things you are doing, whether or not the NFL shares 
with the NBA and with the different tracks around the country.
    I am curious from each of you what type of platform or what 
type of idea might you have as to how we could as a country do 
a better job sharing your best practices or your lessons 
learned. I am sure that each of you, and as Mr. Boles has 
shared and as I know each of you has shared after each event, 
your after-action and all your ideas continue for the next 
event. But how can we take lessons from New Jersey and share 
them with Kansas City or with San Diego or with Chicago and 
Indianapolis?
    Any thoughts and ideas you might have? Because that could 
be the Federal Government's role, whether it is DHS' role in 
protecting the homeland. I am just curious about any thoughts 
you might have. If anyone wants to take a stab at it, I would 
sure love to hear it.
    Mr. Grossi, did you want to jump in? It looked like you 
were ready.
    Mr. Grossi. Sure. At the NFL, we do share our best 
practices, and we share them with the other sports leagues, and 
the information that we----
    Mrs. Brooks. I'm sorry. How is that done? What is the 
mechanism that you share?
    Mr. Grossi. The mechanism is shared through the stadiums, 
through the security department, the NFL security department, 
through baseball, through the NBA, and through the National 
Hockey League. There are different organizations, domestic 
security organizations where information is shared. I think the 
standard that the SAFETY Act certification, the level that has 
brought the stadiums to there, I think that would be a good 
responsibility of DHS. I think DHS can take the best of all the 
sports' best practices, disseminate them down. I will give you 
an example.
    Baseball in 2015, I think they are all going to walk 
through magnetometers for all major league baseball games. We 
at the NFL have had metal detector screening for the last 2 
years, and we are working towards that as well.
    But I think the sharing of information from sports league 
to sports league is very good, and I think the Government could 
help that.
    Mrs. Brooks. Thank you.
    Mr. DeLorenzi.
    Mr. DeLorenzi. There is another university, the University 
of Southern Mississippi, and they have actually established a 
formal committee that meets quarterly. We meet in different--
the last time it was major league baseball, we met in the 
hockey office, and U.S. Tennis is there. We all get together in 
a room, and we will spend a day just talking about things we 
are talking about now. The last time we talked about 
credentialing and background checks.
    So there is a formal committee right now that exists, and 
they should be recognized. That is Lou Marciani and, again, the 
University of Southern Mississippi who have gone out there and 
taken the lead, I think, in bringing everybody together, and he 
is doing a good job. We do get together in meetings, and I will 
look at the director of the NHL, and I will look at the 
director of NFL security, and the NBA, and tennis, and we will 
share and exchange ideas face to face.
    Mrs. Brooks. Thank you.
    Mr. Boles.
    Mr. Boles. With respect to sharing ideas and maybe taking 
it a step further with something Dr. Roberts said, the 
Indianapolis Motor Speedway, unlike MetLife Stadium or a lot of 
these arenas and racetracks in general, we host three or four 
big events for the entire year. So we don't have 200-plus 
events where it makes a lot of sense to invest a lot of capital 
in different pieces of infrastructure.
    However, there might be an opportunity as we bring a group 
together to look at organizations like the Indianapolis Motor 
Speedway, other race tracks, other smaller venues that may not 
have 200 events a year, and begin to do some equipment sharing. 
The magnetometer might be a great place for us to begin to look 
at are there ways that we can share those, and then spread that 
cost across several venues, and in addition maybe you take the 
staff that is trained and use them, and they can be mobile and 
run different facilities.
    So that might be an opportunity we start thinking through, 
how do we share that information, maybe on some of the 
foundations that are already set, but there may be something in 
taking that one step further and looking at ways that we can 
share equipment and make it easier and more accessible for 
especially venues like ours that don't run a lot of events a 
year, but maybe then even some smaller venues where fiscally it 
just doesn't make sense for them to make that kind of 
investment.
    Mrs. Brooks. Thank you.
    Dr. Roberts, we look forward and are pleased that you are 
working with DHS' Science and Technology Directorate and coming 
up with some of these. But with respect to whether it is your 
manual that is coming out and others, what is the best platform 
to be sharing all of these best practices?
    Mr. Roberts. So, I wouldn't say that there is one best way 
to do it. We take advantage of every opportunity to bring 
people together and to bring ideas together. I don't want to 
repeat some of the things I have said before, but let me 
mention a couple of other examples.
    One would be some of the firms that run the security for 
more than one venue. So it is not unusual, for instance, that a 
company would manage or be responsible for the security and the 
training of the security folks at venues in more than one 
league--NBA, NFL, et cetera. So having those people involved is 
a key piece of what I think information sharing would be.
    The second thing to mention is that a lot of these 
employees, including employees at the Super Bowl, are not well-
paid people who are brought in. Sometimes we have seen them 
with special events only trained for a few minutes at the last 
minute. So getting that training somehow coordinated and having 
manuals and best practices and testing the training, so on and 
so forth, is an important thing to do.
    The last thing I would mention is a more informal idea, and 
that is every one of our venues, at least in the major sports, 
have really serious professionals who are there and manage 
security for them. But even the most serious professionals 
don't always see everything. So one of the recommendations we 
have made is have somebody from another venue just come by and 
watch what you do, follow you around on game day, see what your 
procedures are and your protocols. That is a very good way of 
sharing information informally.
    Mrs. Brooks. Thank you. Thank you very much.
    I do want to thank all of the witnesses for their 
invaluable testimony and actually our Members for the 
questions.
    There may be additional questions as to the first panel, 
and this panel as well, and we will ask you to respond in 
writing if you receive any additional questions.
    I would like to know if Congressman Payne would like to 
make any closing remarks before I close.
    Mr. Payne. Thank you, Madam Chairwoman. Let me just say 
that I think this was two outstanding panels in terms of 
talking about best practices and moving forward in information 
sharing. At the committee we have done a lot of work around 
interoperability, so it is one of the key issues that we focus 
on at the committee.
    I would be remiss if I didn't thank Brad Stephens from 
Homeland Security Committee for everything he has done to have 
this hearing be a success.
    I am just glad, Madam Chairwoman, that you were able to 
come to Newark and see it for yourself and have a good time.
    Note that here in the State of New Jersey we have people 
dedicated to working to make sure that the homeland is safe, 
mass gatherings are safe, and just continue to evolve in terms 
of making sure that, irrespective of where you are in this 
Nation, that our citizens can go about their lives in a safe 
manner.
    I am just delighted that you were able to come here to 
Newark. We will have to keep you longer next time.
    Mrs. Brooks. Thank you. Yes, thank you. We do have to get 
back to Washington, DC later today for votes, but I do want to 
just thank all of you for attending and for the effort that you 
took. Obviously, beyond sporting events, all of our large 
venues, whether it is our arts and music centers, could also 
learn from I think the outstanding work that is done in the 
sports industry in this country, and I just want to thank you 
all for your collaboration, for continuing to put the United 
States of America on the global map as to the place that hosts 
the world's finest sporting events.
    So I want to thank you. As Congressman Pascrell mentioned 
earlier--and it was wonderful that he could share with us--we 
do want to be a resource to you and working with the Department 
of Homeland Security and other Federal agencies. So we look 
forward to hearing from you in the future as to whether or not 
you might have future needs.
    I just want to thank NJIT for hosting us today and for 
everyone who put out such a great effort for holding this 
important hearing. Thank you.
    This hearing now stands adjourned.
    [Applause.]
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
